ii

*

I:
fi

A<>
.1

&--~

^ifzJDZO

K

J.

-4i
&
!. !

j...

/

!
i

%go.<^5\
.:• 7Z&7T7.J

y

s

SUPREME COURT

FILED
SEP 9 2020

■f • ..

Court of Appeal, Third Appellate District - No. C087168Jorge Navarrete Clerk
S262871

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
DAVID NILSSON et al., Plaintiffs and Respondents,
v.
ANTHONY BATOR, Individually and as Trustee, etc., et al., Defendants and Appellants.
The petition for review is denied.

\ '

k

\

CANTIL-SAKAUYE
ChiefJustice

i
i
if
I

I-

CltO/¥y/////A/ /5
/ /
&
•7

;
7

&^2&2L6g2lU_

2&;__ <2&y#M2&yc&C>

s

!

i

- I"

.!

p
[i

JMR ^

IN THE COURT OF APPEAL COURT OF THE STATE OF
CALIFORNIA THIRD APPELLATE DISTRICT
NO. CQ87168
DAVID NILSSON,TRUSTEE OF THE NILSSON FAMILY REVOCABLE
TRUST, OLYMPIC INVESTMENTS LLC, HOME TICKET VENTURES INC
OROFINO VENTURES LLC
'
Plaintiffs and Appellee
VS
ANTHONY J. BATOR; BATOR MINING, NORTH AMERICAN
CONSERVATION TRUST; ANTHONY J. BATOR EXECUTIVE TRUSTEE OF
NORTH AMERICAN CONSERVATION TRUST; IRENE BATOR, TRUSTEE OF
NORTH AMERICAN CONSERVATION TRUST AND DOES 1 THROUGH 20
INCLUDED
r
Defendants and Appellant

ON APPEAL FROM SUPERIOR COURT OF SISKIYOU COUNTY (CASE NO
SCSC-CVMS 2015 - 0122-1)
:"
HONORABLE KAREN DIXON
PRESIDING .mDGF.

APPELLANTS OPENING BRIEF

ANTHONY BATOR BD7746
IRENE BATOR
c/o Centinela State Prison
P.O. Box 1661
housing unit D - 3 -130 lower
Yreka, Ca. 96097
P.O. Box 931
Telephone 541-295-4901
Imperial, Ca. 92251
APPELLANTS PRO PER
1| Page

-3

m'

'

State of California
Court of Appeal
Third Appellate District
CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
California Rules of Court, rules 8.208, 8.490(1), 8.494(c), 8.496(c), or 8.498(d)
Court of Appeal Case Caption;
David Nilsson trustee for the Nilsson Family Revocable Trust, Olympic Investments
LLC, Home Ticket Ventures Inc. Orofino Ventures LLC (appellee)
v
Anthony J. Bator; Bator Mining, North American Conservation Trust, Anthony
Bator executive Trustee North American Conservation Trust, Irene Bator Trustee
North American Conservation Trust (appellant)
Court of Appeal case Number; CQ87168
Please check here if applicable;
( ) There are no interested entities or persons to list in this Certificate as
defined in the California Rules of Court.
(What entities are involved is unknown. Mr. Nilsson flips assets around
fraudulently to gain advantage over his adversaries)

Anthony Bator
Anthony Bator Executive trustee

Individually
Trustee for North American
Conservation Trust

2| Page

4

••

.«•
■if

Irene Bator Trustee

Trustee for North American
Conservation Trust
Bator operating entity
Property owner

Bator Mining
North American Conservation
Trust
David Nilsson

Contracting entity

Nilsson Family Revocable Trust
Home Ticket Ventures INC.
Olympic Investments LLC
Orofino Ventures

Alleged holder of assets
Original contracting party
Nilsson asset
Nilsson asset

December 12,2018, California
/
\

Anthony Batof executive trdstee North American Conservation Trust

Irene Bator trustee North American Conservation Trust

3|Page

TABLE OF CONTENTS
Certificate of Interested Entities or persons..
Table of Contents......................................
Table of Authorities.....................................
Introduction.............................................

.2,3.
A
.6
13

Statement of Related Cases...........................
Statement of Facts........................................
1. Bator Started Mine................................
2. Bator Met Nilsson................................

13
15
15
16

3. Bator Identifies his politics and manner or pursuing operations... 16,17
4. Conditions Each Party required Before Contracting.............
5. Nilsson agrees to terms.....................................
6. Nilsson trying to hold Bator liable for Nilssons own failures
7. Nilsson purchases gold ore.................................
8. Contracts entitled Ore Purchase and Processing Agreements,
9. Home Ticket Ventures contracts to pay off Note owned by
Ward and Payne alleged by Nilsson to be in Default........
10. Nilsson et al purchase of46,849 tons of ore. Gold $1,200 ounce,
Value of gold purchased 13,000,000.00....................’
11. North American Conservation Trust guaranteed gold value in
Ore to yield .25 ounces of gold per ton...............

17
18,37
18
19
18-22
.23
19

.20

12. Ore Purchase and Processing agreements call for Completion of mill.,21
13. Nilsson wants to hold Bator and North American Conservation
4| Page

fk)

Trust liable for Nilsson decisions

48,21,25,32

14. Contract identifies that the contracts consist of the sale of ore....... 22
15. Use of ‘Paid OfF Note to Foreclose on mine.....

22,23,25,27,28..

16. Judge Dixon rules in contradiction of contracts..

23,39,40,41,46

17. Nilsson alleges he is having financial challenges

.23'

18. Nilsson reduces Bator salary............................

.24,27

19. Nilsson misleading Bator violating purchasing arrangements.. .18,24,27
20. Other investors involved.............................................

.26

21. Nilssons attempts to attach other peoples attached property

26

22. Nilsson produces Deed of Trust ABSENT NOTE. specified in Deed
ofTrust.................................................................
28
23. No UCC-1 to demonstrate any attachment to equipment.

.28

24. Contract mandates, if a default occurs, what the default procedures are... .28
Plaintiff Allegations

.29

The Law Part B.......

.31

Errors of Judge Dixon regarding sustaining demurrers, denying Bator his
due process Rights and Nilssons use of form over substance...................

41

Question Presented..............................

59

Argument

.62

Conclusion

63

Certificate of Compliance

.66

5 i. P a g e

7

TABLE OF AUTHORITIES
Cases (Federal and Interstate^
Helson v American Hawaiian............
279 F 72 1922
260 U.S. 732,43 S.ct93

.35.

Thwailes v John Hancock Mutual Life Insurance Co.
47 F Supp 737

35

State Cases
Bator v Siskiyou County Health and Human Services
Case No. SCCVPT 13 - 1586

14

People v Bator Case No. C085265

.27

Alch v Superior Court,
122 CalRptr 4th 339,390
19 Cal Rptr 3d 29,94

.49

Butler v Wyman

.47

128 Cal App 736
18 P 2d (1st Dist 1933)
Careau & Co. v Security Pacific Business Credit Inc..... .
222 Cal App 3d 1371, 1381
272 Cal rptr 387 (2nd Dist 1990)

52,56

Certified Growers ofCal Ltd v San Gabriel Valley Bank.
150 Cal App 3d 281, 288
1972 Cal Rptr 710 (2nd Dist 1983)

53.

Daum v Superior Court of Sutton County.
222 Cal App 2d 283
39 Reporter 443

.34

Doheny Park Terrace Home Owners Assn Inc v Truck Insurance Exch ange
6| Page
%

132 Cal App 4th 1076, 1079
34 Cal Rptr 157 (2nd Dist 2005)...
Elder v Pacific Bell Telephone Co.........................
205 Cal App 4th 841, 858
141 Cal Rptr 3d 48 (1st Dist 2012)
Ellis v Rosher Corp
143 Cal App 3d 642
192 Cal Rptr 57 2d Dist 1983
Ex Parte Lange
18 Wall 163

.49
.49

A1

43

Fair Impl Proc (ca BNA).............
793 (2nd 1st 2004)

49

Fenn v Sheriff.

.49

109 Cal App 4th 1466, 1497
7 Cal Rptr 3d (3rd Dist 2003)
Fenton v Groveland Community Services dis....
135 Cal App 3d 797
185 Cal Rptr 7581 (5th 1982)

.46,57

Fremont Indemnity v Fremont General Corp.............
148 Cal App 4th 97-111-112
Cal Rptr 3d 6211 (2d Dist 2001)

54

Friends ofGlendora v City of Glendora.....................
182 Cal App 4th 225, 229
106 Cal Rptr 3d 334 (2nd Dist 2010)

.52

Gonzales v Hodgson
38 Cal 2d 91
237 P 2d 656

35

Hoverston v Superior Court,
74 Cal App 4th 636
88 Cal Rptr 197 (2nd Dist 1999)
In Re Guardianship ofChristian G 2011
7| Page

42,43

14

195 Cal App 4th 511
Jamison v Dirta
179 Cal App 4th 672
101 Cal Rptr 3d 345 (4th Dist 2009)

42

Johnson v County ofLos Angeles.................
143 Cal App 3d 292
Cal Rptr 704 (2d Dist 1983)

55

Jones v Daley

55

122 Cal App 3dn.l.
76 Cal Rptr 130 (2nd Dist 1981)
Kerivan v Title Ins. And Trust Co.................
147 Cal App 3d 225
195 Cal Rptr (2d dist) 1983
Lewis v Fappiano

46,52

34
150 Cal App 2d 752
310 P 2d 658

Litwin v Estate ofFormilla
186 Cal App 4th 601 613
111 Cal Rptr 3d 868 93d Dist 2011)

54

Lord Garland,

50

27 Cal 2d 840
168 P 2d 5 (1946)
Ludgate Ins. Co. v Lockheed Motor Corp...................
82 Cal App 4th 592. 608
98 Cal Rptr 2d 277 (6th Dist 2000)
Medix Ambulance Inc v superior Court.....
97 Cal App 4th 109,118
Cal Rptr 2d 249
Pay Corp ofAmerica vLeach...........
177 Cal App 2d 632
2 Cal Rptr 1428

44,48,50

,44,51

34

8| Page

Id

*

Peterson v Montgomery Holding Co,
Cal App F 3d 1949
89 Cal App 2d 890

34

Product lub Rep
(CC14)P 11162
24cc Rep serv 2d 1252 2nd dist 1986

53

Oue amane v Stewart Title Guarantee Co
19 Cal 4th 26,43 n. 7
77 Cal rptr 2d 709
960 P 2d 513

52

Sanders v Cariss
274 Cal Rptr 186 (4th 1990)

55

Schifano v City ofLos Angeles
31 Cal 4th 1074
Cal Rptr 457
79 P 3d 569

.46

Schnall v Hertz Corp
78 Cal App 4th 1144,1152
93 Cal Rptr 2d 439 (1st Dist 2000)
Silver National Trust and savings Bank v Bank ofAmerica
47 Cal App 2d 639

53

34

Wantuch v Davis
32 Cal App 4th 1786
39 Cal Rptr 2d 47 (2nd Dist 1995)

42,43

Williams v Beehnut Nutrition Corp.....................
105 Cal App 301
135 139 n 2
229 Cal Rptr 605

53

Wilson v Zirb

34

15 Cal App 2d 526

9| Page

ti

Youngman v Nevada Irr Dist.....
70 Cal 2d 240,245
74 Cal Rptr398
449 P. 2d 462

48

Constitution of the United States
1) Article 1 section 10

33,41,64

2) Seventh Amendment

41

California Civil Code
Section 22.2

41.
California Corporation Code

Section 2203

31

Section 17708.07(a)

32

California Civil Code Division 3
Obligations Part 2 Contracts
Section 1439

33,61

1556

35

1565

35

1567

.36

1571

36

1572

36

1573

36

1574

36

1575

36,37,39
10 | P a g e

iv

1580

37.

1583

37

1584

.37

1585

37

1586

38

1595

38.

1597.

38

1636

38

1638

38

1640

38

1641;

39

1643

;.39

1647.;.

39

1648...>

39

Code of Civil Procedure
Section 33

40

389

57

389(a)

.45

389(b)

.45

430.41

.48,58

430.60

57
XI I P o g e

452

52

472(a)(c)(d)

58

585

45

586

45

1008

43,56
California Rules of the Court

Rule 3.1312(a)

56.

3.1312(b)

56

3.1320

57

12 | F a 5 e

r*

INTRODUCTION
A)

This suit is about the illegal removal of a gold mine property and gold mining

equipment in violation of contractual obligations, Constitutional violations and
violations of California statutes.
B)

Statement of Related Cases
The primary defendant, Anthony Bator, is currently in prison. He has been
accused and convicted of multiple crimes that never occurred. The conviction is on

direct appeal and a Writ of habeas Corpus will be filed before the end of 2018.
The prosecution of Mr. Bator is retaliatory prosecution. The Siskiyou County
legal community, led by Christine Winte, deputy district attorney, willfully and
wrongfully violated the law by illegally removing Raylene Bator from her birth
family. The Bator family is suing that legal community for violating the law and
operating outside of their jurisdiction in the taking of the Bator child. See Appellate
brief in Case No. C084483 currently before the California Court of appeals for the
Third Appellate District.
The Bator family initiated a suit holding the defendants in Case No. C084483
supra civilly liable for the taking of their child. The Bator family seek criminal
prosecution of these criminals for their illegal acts.
Christine Winte responded to the actions of the Bator family by falsely alleging
Criminal actions by Anthony Bator and by violating dozens of Bator’s rights. Mr.
Bator was charged, subjected to a highly unfair trial and convicted.
13 I P <2 g C'

The Bator child was illegally removed from the Bator family in August of 2011.
In September of 2011, the Bator family began the process of holding the Siskiyou
County authorities liable for their illegal acts. As the Bator family moved the action
forward that legal community retaliated by alleging false charges against Mr. Bator.
Christine Winte’s testimony from 2011 until Mr. Bator’s conviction in 2017
Contradicts what she repeatedly testified to before government agencies. Ms. Winte
repeatedly peijured herself.
After an Administrative Hearing in an appeal to the Siskiyou County Superior
Court (with a visiting judge) the Bator family prevailed in having the court
conclude the child was removed illegally. See Judge Erwin’s opinion in Case No.
SCCVPT13 —1526. See also In Re Guardianship ofChristian G (2011) 195 Cal
App 4th 581.
This is the legal environment Mr. Bator and the Bator family has had to conduct
these legal affairs in.
Three of the five judges in Siskiyou County are defendants in CQ84483. One
judge recused himself because he shared an office with Ms. Winte for ten years; and
the fifth judge is Judge Karen Dixon.
Judge Karen Dixon is not impartial. Judge Dixon was at times at Mr. Bator’s
criminal trial as a member of the audience.
Judge Dixon either does not understand the law or does not believe it applies to
I4-J.P a g e

ft

her.
Contracts Mr. Bator and Mr. Nilsson entered mean nothing in Judge Dixons
courtroom; or Judge Dixon simply does not understand the terms of Bator et al’s
and Nilsson et al’s contracts.
Mr. Bator believes Judge Dixon has operated to willfully damage the Bator
family because the Bator’s are seeking justice regarding the illegal taking of the
Bator child.
Because of the injury to the Bator family, the economic hardship created by
Mr. Nilsson et al’s breaches, Mr. Nilsson has used these hardships to unjustly
enrich himself.
STATEMENT OF THE FACT PART A
The Bator family entered the mining business in the 1980’s after becoming
advocates of a gold based currency.
The Bator family has spent hundreds of thousands of dollars on locating a
mining property the Bator family intended to develop as a family business.
In 2004, North American Conservation Trust acquired the mine property
and Anthony Bator owned the company that would mine the gold.
The Bator family began the project with the intention of running the project
solely as a family project and proceeded to do so. Unfortunately, the Bator family
ran out of money before completing die project.
Mr. Bator chose to sell some mining equipment tiiat was not necessary to operate
.23 7, ;• f: r

*- rf

a hard rock mine.
Mr. Nilsson came to visit California to examine that same placer mining
equipment he was interested in purchasing for a placer mine he owned here in
California.
Mr. Nilsson did not purchase the trammel for sale but expressed an interest
in actively entering the mining business.
Mr. Bator informed Mr. Nilsson the status of the mine and Nilsson expressed an
Interest in participating (not loaning Bator et al money) with Mr. Bator to enter the
mining business.
Mr. Nilsson expressed his desire to take advantage of being in the mining business
and in the security of owning gold given the possible financial collapse resulting from
the poor economic and political practices of the country.
Mr. Bator is an avid constitutionalist. He believes in a limited republican form of
government with individual liberty and self determination, as well as being
responsible for your actions.
Because of Mr. Bator’s view of this countries economic and political policy
he has become a target of the bureaucrats that promote that faulty political and
economic policy. Mr. Bator is not in prison for committing a crime. He is in prison
because of his political beliefs.
Mr. Bator expressed his beliefs and intentions with Mr. Nilsson. Mr. Nilsson
understood Mr. Bator’s beliefs and chose to take advantage of them by seeking to
16 j P s g e

participate infheBatoret al venture.
-

Nllsson acknowledged the distinct advantage that could be had by operating in
the manner advocated. To enter the mining business is normally so capital intensive that

few individuals would ever be able to capitalize getting started.
Both parties expressed the condition that had to exist for them to participate in the
project with each other.
The conditions that had to exist before either party entered into any agreement
were clearly established and clearly articulated in the contracts.
The mandatory terms Mr. Bator and Mr. Nilsson agreed to abide by;
Mr. Bator and North American Conservation Trust would NOT put the property
up for collateral under any condition.
Mr. Bator would not put equipment up for collateral.
Mr. Bator required a salary to permit him to continue to bring the property
into production.
Mr. Bator had to operate the mine as a sole proprietor. As a person who only risked
his own life Mr. Bator was able to avoid interstate mine and safety standards which
add substantial expense to development.
Both parties agreed to pay off the only mortgage on the mine property and have
North American Conservation Trust hold the mine unencumbered.
Both parties agreed the only way out their mutual contractual obligations was
to complete the mill and extract gold from the ore each party owned.
17,\ Page

Both parties agreed to agree about the method of production and the
spending of Mr. Nilsson et al’s money his entities invested.
Mr. Nilsson expressed his concerns over purchasing equipment and Mr. Bator
selling that equipment and absconding with the money and for selling the mine and
absconding with the money.
Both parties worked these issues into the Ore Purchase and Processing agreement
putting both parties, Bator and Nilsson on equal terms (in return and authority)

on

making profits and choices about what had to be done at the mine property. Both
parties could succeed or both parties could fail. Now, Mr. Nilsson chooses to alle

ge

Mr. Bator is responsible for Nilsson’s own choices.
Mr. Nilsson represented himself as a venture capitalist, a specialist in raising
capital; and seeking higher returns for taking risks. Returns are high because the
concept of being a venture capitalist accompanies the commitment to accomplish and
finish goals. In the contracts between the parties here the contracts call for completiion
of the processing mill. The contracts identify that Mr. Nilsson purchased gold bearing
ore. Mr. Nilsson’s failure to fund the mill kept his ore from being processed. He made
the decisions that caused the delays in completing the mill. Mr. Nilsson’s failure to
pay Bator’s salary caused Bator’s financial problems. Mr. Nilsson engineered the
mcompletion of the mill. Because of his actions, he now attempts to enrich himself by
attempting to take over this project clearly violating the intent of the parties. Judge
Dixons prejudices against Mr. Bator has permitted this fraudulent attempt to take
v5'3 .*■

?

e

to

North American Conservations Trust’s property and Bator’s company.
These issues were addressed in The Ore Purchase and Processing Agreements.
It was Mr. Nilsson who chose to create multiple contracts for his benefit allegedly
for tax purposes.
The first contract North American Conservation Trust, Nilsson et al and Anthony
Bator entered into was between North American Conservation Trust, Anthony Bator
and Nilsson’s company Home Ticket Ventures.
The contract called for Home Ticket Ventures to pay off the only mortgage that
existed on the mine property and that the parties agreed to hold the property
unencumbered.
Plaintiffs exhibit 5 clause 21(a) clearly states Home Ticket Ventures was to pay off
the only existing mortgage on the mine. This is a benefit of North American
Conservation Trust entering into a contract with Home Ticket Ventures Inc.
Nilsson s companies purchased 46,840 tons of gold bearing ore. Ore is rock that has
gold that can be processed economically. The ore Nilsson purchased at approximately
$10 per ounce is valued at $1,200 per ounce after processing and recovery. A total
value of over $13,000,000.00. This is how Nilsson would make a profit. But Mr.
Nilsson had to fully fund the mill and to have it operating to make any money. The
Ore had to be crushed to the consistency of talcum powder or finer, and the gold
extracted. Tie block of ore on North American Conservation Trusts property has
been identified and mapped. The block of ore has 120,000,000.00 of gold m that block
IS j P age

U

of ore;
Using traditional business models a company that makes a 20% net profit is
considered a well run company. North American Conservation Trust and Anthony
Bator made an agreement in which Mr. Nilsson was sold enough gold bearing ore to
net out 50% of the profits that were projected from the $120,000,000.00 block of ore
on North American Conservation Trust (hereafter NACT) property.
The Ore Purchase and processing Agreements clearly states that Nilsson’s
companies were purchasing Ore; not equipment and not holding a mortgage.
NACT guaranteed the gold bearing ore Nilsson et al purchased would average .25
ounces of gold per ton. The guarantee warrants that if the gold ore processed, if it did
not average a minimum of .25 ounces per ton, Bator, the processor, and NACT, the
seller of the ore, would increase the number of tons sold to bring the yield of gold sold
would average .25 ounces per ton for each ton sold to Mr. Nilsson et al.
Once the mill was complete, Mr. Nilsson et al no longer faced any risk. His
$13,000,000.00 would be the reward for funding the mill.
Mr. Nilsson implies Mr. Bator and NACT gave Mr. Nilsson an unconditional
guarantee. What did the contract sell.. .gold bearing ore. A guarantee can only be
applied to the product of what was sold.
Bator and NACT will not guarantee his car will get 28 miles to the gallon. His car is
not part of the contract or the guarantee . The only guarantee they have given is the
value of tbe'Ore Nilsson et al has purchased.
:2C» [Page

P!/

The Ore Purchase and Processing Agreements call for Mr. Nilsson to fund the'
completion of a gold processing mill. Clause 1(b) page 3 of these agreements and
Clause F of The Ore Purchase and Processing Agreements.
After the completion of the gold processing mill, Mr. Bator, the processor would
Process Mr. Nilsson et als ore using the revenue generated from the ore owned ny
NACT processing costs per ounce of gold average $ 1,000.00 per ounce.
No processing of ore could occur until after the mill was complete. No one’s ore
not NACT’s ore, not Nilsson’s ore.
NACT, Anthony Bator and Nilsson et al were in the same position. Nothing could
happen until Nilsson fulfilled his commitment to fimd a complete operating mill.
This suit is an attempt by Nilsson et al to hold Bator and NACT liable for the
decisions Nilsson made for his artificial entities, Nilsson alleges NACT and Bator
breached The Ore Purchase and Processing Agreements and failed to complete an
operating gold recovery mill.
The question Nilsson refuses to address, and demonstrates Mr. Nilsson’s
fraudulent intent is that Bator could not operate without Mr. Nilsson’s approval. The
Ore Purchase and Processing Agreement’s clearly state that all decisions regarding
how Mr. Nilsson et al’s money would be spent was to be by both parties. Bator et al
and Nilsson et al.
The Ore Purchase and Processing Agreements under Recital Clause F states:
Subject to the final approval iff writing of both parties after certain critical tests

are performed on the ore.:..
Further the contract states;
may be amended from time to time during the terms of this agreement”
Further page 15 Clause 38 states;
seller, processor and purchaser hereby agree to work together in good faith to
amend this agreement in a timely manner and mutually acceptable terms and
conditions such that the original intent and objectives of the agreement are
amended in a legal and enforceable manner to fulfill the purposes set forth
herein”
Ore Purchase and Processing agreements page 7 Clause 10 line (ii);
“seller has full right, power authority to execute this agreement and to sell and
transfer ownership of the ORE.”
Not a loan; Not a mortgage; Not a lien on equipment.
Mr. Nilsson makes NO statement about his duties under the contract other
than the false conclusion that he honored all of his obligations.
Nilsson’s company Home Ticket Ventures Inc. failed in its obligation to pay
off the mortgage Nilsson et al alleges Mr. Bator are in default upon.
Nilsson company Home Ticket Ventures inc breached the contract , not
fulfilling its obligations under Home Tickets contract with North American
Conservation Trust and Anthony Batorto pay off the only mortgage that existed
at the mine property; pursuant to plaintiffs exhibit # 5 Clause 21(a):
221 P 3 g e

tA

now the same alleged mortgage, contractually bound to be paid off by Home
Ticket Ventures is being used to ‘foreclose5 on North American Conservation
Trusts property. This note formally owned by Sandra Payne and Judith Ward “paid
off by Home Ticket Ventures Inc. ends up in the possession of another of
Nilsson s unregistered companies, “Olympic Investments’5 who alleges North

American Conservation Trust is in breach of contract. Home Ticket Ventures was
Contractually bound to pay off the alleged mortgage. For Olympic Investments to
allege NACT is in default is fraud.
Mr. Nilsson maneuvered circumstances to create a situation so he could steal
the property. Judge Dixon does not comprehend the scheme Mr. Nilsson has
employed to unjustly enrich himself; or her prejudice against the Bator family
overcame her obligations to rule justly according to contractual obligations and
the rule of law.
Judge Dixon wrongfully awarded judgement to Nilsson et al. any breaches
Mr. Bator may have made are a direct result of Mr. Nilsson’s failure to fulfill his
contractual obligations.
Mr. Nilsson alleged he fulfilled all of his contractual obligations; simply not
true.
At first, Bator believed the breaches by Nilsson were Mr. Nilsson et al
having financial challenges of his own. Bator and Nilsson made The Ore
Purchase and Processing Agreements because Mr. Bator had run into financial
33 I- P.3 fie

,

7/

difficulties. But, as time proceeded, Nilsson was scheming to increase the
value of his portion at the mine while denying Bator the means to pay Bator’s
living and travel expenses. Nilsson then alleges Bator was in breach of his
obligations and Nilsson could attempt to take the entire project. As Mr. Nilsson
expressed he was having financial difficulties, the parties agreed to reduce
Bator’s salary from $120,000.00 per year to $24,000.00 per year, a bare
minimum to survive.
Amongst the things that demonstrated Nilsson et al was being less than
straight forward was:
1) Nilsson quit paying Bator any money to cover any of Bator’s expenses.
2) At the time, Mr. Nilsson expresses his inability to pay Bator’s living
expenses Nilsson et al purchases a $35,000.00 dump truck. That money was
needed to pay off the mortgage, complete the mill, and pay Bator’s living
expenses. Mr. Nilsson proceeded to do what he wanted to do, increasing the
value of the mine while causing difficulties for Bator enabling Nilsson to file
this suit.
Bator already had a dump truck that was adequate for running during start up
and dump trucks are available all over the country and require no lead time
to acquire.
3) Concurrently, with # 1 and # 2, Mr Nilsson purchases a 2300 gallon fuel
truck. Bator had to fix it and pa>i to pick it up from Portland, Oregon. The
: V4] P Xf.*

2jt)

fuel truck tied up another $7,000,00 that was not needed for a fuel truck at that
time. That money was necessary to complete the mill, pay the mortgage that
Nilsson failed to pay off; and should have been used to assist Bator with his
living expenses. As with the dump truck, it was not necessary at the time. It
was purchased and fuel trucks are available anytime with no lead time
necessary for fabrication.
4) Concurrently, with #1, 2 and 3, Mr. Nilsson purchased $5,000.00 worth of
breaker bars that would be necessary when the mill was in production. The
lack of capital for the purpose of finishing the mill continued as Mr. Nilsson
continued to breach The Ore Purchase and Processing Agreements.
5) Concurrently, with #1,2,3 and 4, Mr. Nilsson failed to pay off the
remaining mortgages as agreed to in Exhibit # 5 with Home Ticket Ventures.
The Ore Purchase and Processing Agreements, exhibit # 5 page 15,
Exhibit A Clause 38;
“Further assurance, seller, processor and purchaser hereby agree to work
together in good faith to amend this agreement in a timely manner and or
mutually acceptable terms and conditions such that the original intent and
objectives of this agreement are amended in a legal and enforceable manner
to fulfill the purpose set forth herein.”
And Exhibit 5 Clause F;
“subject to final approval of both parties after c^mrcffieai tests are
25 | Page

-

*1

performed on fee-ore.”
Mr. Bator informed Mr. Nilsson of the difficulties he was having because
of Mr. Nilsson’s failure to fund and feat as a result the project was not
mov ii^caprtaT^lr. Nilsson failed to p erform in “his expert field” raising venture
capital. Mr. Nilsson failed. Mr. Nilsson was well informed of additional parties
involved in making this project happen. He is fraudulently attempting to seize
property he has no attachment to.
Mr. Nilsson et al acknowledged the participation of additional parties putting up
specific equipment for use at the mine.
Anders Karlsson put up a significant sum of money to acquire floatation cells for
fee recovery of fme gold. These floatation cells are valued at 1.2 million dollars. Mr.
Nilsson knew of Mr. Karlsson and of Mr. Karlsson’s investment attachment of that
equipment.
As has been demonstrated thus far, Mr. Nilsson’s next attempt is to get fee
floatation cells.
Next, Mr. Nilsson approached Mr. Bator suggesting that he had been approved
for an SBA loan that he will provide for the money to install the floatation cells.
Nilsson presents a Note’ to Bator to procure Bator’s signature again to gain some
form of attachment.
Again, Mr. Nilsson fails in his effort to raise money pursuant to all his
Obligations -and-promises.
26 { P a-£ e

2/

The appellants believe these facts should be presented to the tier of facts. Judge
Dixon, without justifying her conclusions, or providing any specific reasons as to
why, dismissed the appellants Cross Complaint in violation of settled law (infra) about
assuming the truth of facts presented in a suit in which opposing party attempts to
have dismissed by demurrer.
After Mr. Bator was arrested Case No. CO085265 Mr. Nilsson visited Mr. Bator in
jail and informed Mr. Bator that Bator had to renegotiate the contracts. Instead of
honoring his obligations, Mr. Nilsson finally fulfilled his obligation to pay off the
mortgage owned by Sandra Payne (exhibit 5 Clause 2(a) which was behind because
of Mr. Nilsson’s willful failure to pay the mortgage earlier as well as his failure to
pay Bator’s living expenses for a substantial period of time. Both are affirmative
defenses. The failure to pay happened long before Mr. Bator’s arrest. Nilsson is
indirectly responsible for Mr. Bator’s arrest.
Mr. Nilsson’s use of Nilsson’s companies to acquire the property owned by North
American Conservation Trust demonstrates his fraudulent intentions. When it was
advantageous to Mr. Nilsson to pay off the mortgage, the money to pay off the
mortgage, money was readily available. Not to fulfill his obligations to North
American Conservation Trust and to Anthony Bator but to unjustly reward himself by
taking or attempting to take the property in violation of the terms of the contract.
As acknowledged by the title of all the agreements, they are titled, ‘Ore Purchase
and Processing Agreements . They a ^ not loans. They are not mortgages. They are

not title to equipment or property. These agreements put Nilsson et al into the
mining business by purchasing unprocessed ore.
Mr. Nilsson has produced a Deed of Trust alleging a ‘Note’ that he alleges has
existed on the property since the Deed was filed. The Deed of Trust identifies the
‘Note’ associated with the deed of Trust. No Note that Mr. Nilsson et al can use to
take the property, real or personal exists.
No UCC-1 encumbering the equipment allegedly attached by Nilsson et al exists
or ever existed. And, the UCC that existed on a small part of the equipment years ago,
no longer exists.
Mr. Nilsson is committing fraud sanctioned by Judge Dixon because Judge Dixon
is prejudice against Mr. Bator and the Bator family.
The next issue that needs to be addressed regarding Mr. Nilsson obligations under
The terms of The Ore Purchase and Processing agreements;
Default;
Defined in The Ore Purchase and Processing Agreements Exhibit A line (1)
“Purchasers exclusive right to use mill in event of default.”
This was entered into the contract to compel the complete mill and prohibit any
taking of the mill and property in any default circumstances. The contract calls for
the delivery of gold. The only way to get the gold is to complete the mill by
processing the ore.
.*

The Ore Purchase and Purchasing Agreements- exfeiMtv
28 | Page

b

4(b)-

This compels the contract, the mill completion and compels production of gold.
This is the intent of the contracts.
When Mr. Nilsson et al receives their allotment of gold, they leave. The property
and the equipment releases Bator without any further obligations on Bator, the Bator
family or North American Conservation Trust.
Mr. Bator and NACT would never have contracted for less.
THE PLAINTIFFS ALLEGATIONS
The contract favors the defendants and the defendants believe that given the terms
all parties agreed to in The Ore Purchase and Processing Agreements, there iis no way
for the plaintiffs to prevail in this suit.
Although Griffith has falsely alleged that Mr. Bator has failed to answer
Interrogatories and Admissions and Griffith has sought terminating sanctions and/or
Bator from explaining and defending the intent of the contracts executed by NACT,
Anthony Bator and Nilsson et al, Griffith willfully deceives the court.
Judge Dixon has dismissed, upon the request of attorney Griffith, that NACT and
Anthony Bator’s Cross Complaint be dismissed by demurrer, Judge Dixon dismissed
the suit without cause (see infra).
Attorney Griffith has repeatedly alleged Mr. Bator has not answered Interrogatories
and Admissions. This is an absolute lie. Mr. Bator answered the Interrogatories and
admissions, at least four times. In Griffiths request for terminating sanctions, Griffith
Pt fit

3/

inadvertently provided some of the answers Mr. Bator responded to while at the same
\

time Griffith is alleging he did not receive them.
Because of Griffiths lies about not receiving Mr. Bator’s responses, Mr. Bator was
compelled to have two witnesses sign affidavits that they observed and confirmed the
answers and admissions sought by Griffith were sent to Griffith and the mail sent to
Griffith was traced and delivery and acceptance by Griffiths office was confirmed.
After this elaborate necessity, a necessity because of Griffith lies, Mr. Griffith
alleged he did not receive Bator’s responses again until Bator supplied to the court the
evidence referred to above.
Griffith then changed his story suggesting Mr. Bator’s answers were inaccurate.
Mr. Bator’s answers were 100% accurate. Unfortunately for Griffith, Bator’s answers
are 100% true and do not support Griffiths allegations and demonstrate it was Nilsson
who breached the contracts.
This suit, these contracts are a big deal. When this mine is operating, the value of the
project will easily exceed 100,000,000.00 not in gold value, in what can happen with
good management and operations begin.
Mr. Nilsson’s greed has overcome his honor.
Mr. Nilsson et al could not prevail in this case without a judge who appears
unwilling to enforce the contracts or the law.
Mr. Nilsson et al could not prevail in this case without a judge who is prejudice
against the defendants. (See statements of related cases).

THE LAW
PARTB
Judge Dixons conclusions have no foundation in the law. Her conclusions have no
foundations in the contracts and Judge Dixons conclusions have no foundation in
common sense.
It appears as though Judge Dixons desire to punish the Bator family for suing her
coworkers outweighs any sense ofjustice.
Mr. Bator identifies the intent of the contracts as agreed to by the participants of
that contract.
Plaintiff, David Nilsson et al, filed suit against NACT and Anthony Bator on
September 23,2015. NACT and Anthony Bator immediately filed a cross complaint
against David Nilsson et al.
David Nilsson’s companies Nilsson Family Revocable Trust, Olympic Investments
LLC, Home Ticket Ventures Inc. Orofino Ventures LLC are artificial entities. None of
these companies are registered to do business in the State of California. They are not
registered with the Secretary of the State. There is no information recorded with the
state to identity who to serve when filing suit against any of these companies.
The unregistered artificial entities have no standing in the Courts of California
to enforce a collection action in the State of California pursuant to section 2203 ofthe
California Corporation Code;
(a) Any foreign corporation which transacts intrastate business and which does
not hold a valid certificate from the Secretary of State may-be subject to a
■31 | P a £ e

=~=£SSf§==

a party
defendant.
(b) The penalty established by subdivision (a) of this section shall be assessed
according to the number of days it is found that the corporation has been willfully
domg unauthorized intrastate business. Prosecution under this section may be
brought, and the money penalty recovered thereby shall be paid, in the manner
prodded by Section 2258 for a prosecution brought under that section. ,
The amount
of the penalty assessed shall be determined by the court based upon the
circumstances, including the size of the corporation and the willfulness of the
violation.
wlfnr,ei9nmC0T0r,atj0n SUbj6Ct t0 the Provisions of Chapter 21 (commencing with
nfnc°nk2n00i WhlCh transacts intrastate business without complying with Section
2105 shaH not maintain any action or proceeding upon any intrastate business so
transacted in any court of this state, commenced prior to compliance with Section
2X05, until it has complied with the provisions thereof and has paid to the
Secretary of State a penalty of two hundred fifty dollars ($250) in addition to the
i.n9,thf statement and designation required by Section 2105 and has
filed with the clerk of the court in which the action is pending receipts showing the
payment of the fees and penalty and all franchise taxes and any other taxes on
usiness or property in this state that should have been paid for the period during
which it transacted intrastate business.
y

And Section 17708.07(a) of the California Corporation Code;
17708.07.
(a) A foreign limited liability company transacting intrastate business in this
state
shall not maintain an action or proceeding in this state unless it has a certificate of
registration to transact intrastate business in this state.

Mr. Nilsson has participated in the decisions regarding the operations of the mine.
He has never acted as a lender. He has continuously made decisions regarding many
multiple of decisions regarding day to day operations.
Further, it is impossible for these companies to be served in the State of California or
know the exact person responsible to receive service or responsible for their actions.
- Upon dose examination of the actions of these companies their continued fr&tui

r e *;; s

becomes very obvious. ■ -

-•--

Mr. Bator is not responsible 4>r their fraudulent actions; the Bator’s are these
companies victims.
As stated in Statement of the Facts Part A, a contract clearly exists.
Examination of the most fundamentalstatues)appear to be necessary because Judge
Dixon appears to believe they do not exist or they do not apply to her jurisdiction.
only Judge Dixon can answer that question of her logic.
The Constitution ofthe United States Article I, Section 10 states;
No state shall enter into any treaty, alliance or confederation; grant Letters of
Marquis and reprisal; own money; omit bills of credit, make anything but gold or
silver a tender In payment of debts; pass any Bill of Attainder, ex post facto of law,
or law impairing the obligation of contracts, or grant title of nobility.

Judge Dixon, ultra vires, is operating to negate a contract which clearly the
plaintiffs have clearly breached and committed fraud in attempting to gain title to
NACT and Anthony Bator property.
CALIFORNIA CIVIL CODE DIVISION 3
OBLIGATIONS PART 2 CONTRACTS
Section 1439 states;
"Before any party to an obligation can require another party to
Perform any act under it, he must fulfill all conditions precedent thereto
imposed upon himself, and must be able and offer to fulfill all
conditions.concurrent so imposed upon him in the like fulfillness of the
■other part..."

Pa

.

33

See Wihon Zirb 15; Cal App 2d 526
Silver v Bank of America National Trust and Savings Association
47 Cal App 2d 639
Peterson v Montgomery Holding Co.
Cal App F 3d 1949
89 Cal App 2d 890
“Before any party to an obligation can require party to perform any act
under it, he must fulfill all conditions precedent thereto imposed on
himself’
Pay Corp ofAmerica v Leach
111 Cal App 2d 632
2 Cal Rptr 425
In order for plaintiff to be able to enforce defendants obligations under a contract,
plaintiff must allege either performance of the conditions precedent or an excuse.
Daum v Supreme Court ofSutter County
228 Cal App 2d 283
39 Cal Rptr 443
Mr. Nilsson et al allege they performed to the contract. If Judge Dixon read any of
contract it would be glaringly obvious Mr. Nilsson did not fulfill his obligations and is
lying. Further, when Bator et al attempted to present further evidence of Nilsson
breaches, Judge Dixon ordered the evidence removed from the court.
"Allegations that a party performed conditions precedent imposed on
him is essential part of his action.

Lewis v Foppiano
150 Cal App 2d 752
310 P 2d 656
And if the plaintiff choses to allege he fulfilled his obligation he should not commit
perjury when he makes that allegation.
“If performance of a condition will not be followed by performance
34 | P a g e

3(#

of a promise widen is conditional it is useless for intended puiposes and it is
therefore unnecessary to perform condition.”
Thwaites v John Hancock Mut Life Insurance Co
47 F Supp 737
Mr. Nilsson failed to fund completion of the mill, and pay Mr. Bator’s salary
as agreed. Mr. Nilsson failed to fund the mill yet he believes he should be able to
receive gold from a complete mill. Mr. Nilsson breached the contract.
“A party complaining of the breach of contract is not entitled to recover herefore
unless he has fulfilled his own obligations.”
Gonsales v Hodgson
38 Cal 2d 91 237 P 2d 656
“The burden of proof is upon the plaintiff to show damages, and there can be no
damages to him under a breach of contract unless he is ready willing and able to
perform his part”
Helsonv American Hawaiian S.S. 9th
279 F 72 1922
260 U.S. 732
43 S. Ct. 93
And what does the contract state if there in fact was a default (there is not) a default.
Civil Code Section 1556 states;
All persons are capable of contracting except minors, persons of unsound
mind and persons deprived of civil rights.”
Mr. Bator and the Bator family have not been deprived of their civil rights.

California Civil Code section 1565 states;
"Consent of the parties to contract must be;
1) Free
2) Mutual; and
$$ (Page

3i

3) committed to each to the other
Mr. Nilsson and Mr. Bator agreed to the terms of the contract. Mr. Nilsson
would fund a complete mill and his only recourse was to take over control of the mill

and receive 80% of the gold until ‘his’ ore was processed.
Civil Code section 1567 states;
“A apparent consent is not real or free when obtained through.. .3. Fraud”
Civil Code section 1571 states;
“Fraud is either actual or constructive.”
Civil Code 1572 states;
“actual fraud, written the meaning of this chapter^eonsists in any of the following
Acts, committed by a party to the contract, o^tmsjns convenience, with intent
Jo deceive another party thereto, or to inducelmn to enter the contract.”
“4. A promise made without any intention of performing; or
5. Any other act fitted to deceive.”
Civil Code section 1573 states;
“Constructive fraud consists;
1. In any breach of duty which without an actually fraudulent intent
Gains an advantage to the person in fault, or any one claiming under him,
By misleading another to his prejudice, or to the prejudice of any one
Claiming under him.”
The Bator’s allege actual fraud. Years of Mr. Nilsson conniving demonstrates his
intention from the beginning of the project.
Civil Code 1574 states:
“Actual fraud is always a questidn of^fraud.,^y
NACT and Anthony Bator demanded a jury trial. Judge Dixon dismissed their claims.
There was no justification for Judge Dixon’s dismissal.
Civil Code 1575 states;
j Pagr

“Under influence consists
1) In the use, by one in whom confidence is reposed by another, or
who holds a real or apparent authority over him of such confidence or
authority for the puipose of obtaining an unfair advantage over him;
3) In taking a grossly and unfair advantage of another’s necessities or ’
. distress.”
Mr. Nilsson demonstrated his intent by continuously denying Bator what Bator
was dues and then seeking concessions for paying to Bator what Bator was due.
Civil Code 1580 states;
consent is not mutual unless the parties all agree upon the same thing in
the same sense. But in certain cases defined by this.chapter in
Interpretation, they are to be deemed so to agree without regard to fault.”
Mr. Nilsson agreed with the terms of the agreement he put his signature to. He now
Has buyers remorse which Bator et al are not responsible for.
Civil Code 1583 states;’

\

“Consent is deemed to be fully communicated between the parties
As soon as the party accepting a proposal has put his acceptance
In the cause of transmission to the proposer in conformity to the last
Section.”
Civil Code 1584 states;
Performance of the conditions of the proposal, or the acceptance of
The consideration offered with a proposal is an acceptance of the proposal.
Nilsson et al endorsed the contracts and performed accordingly.
Civil Code 1585 states;
An acceptance must be absolute and unqualified, or must include in
Itself an acceptance of the character which the proposer can
Separate from the rest, and which must include the person accepting.
A qualified acceptance is a new proposal.
Nilsson et al accepted and acted upon The Ore Purchase and Processing
Agreements as they are written and as proposed.
37 | P a g f>

Jf

Civil Code 1586;
“A proposal may be revoked at any time before its acceptance,
is communicated to the proposer, but not afterward.”
Nilsson years later, has chosen the course of his actions; he is attempting to
revoke the contract; Not an acceptable option.
Civil Code 1595 states;
“The object of a contract is the thing which is agreed, in the part
of the party receiving the consideration to do or not to do.”
The Ore Purchase and Processing Agreement call for a complete mill and Mr.
Nilsson operation of the mill in the event of default. Mr. Nilsson has breached The Ore
Purchase and Processing Agreements.
Civil Code 1597 states;
Everything is deemed possible except that which is impossible in the
nature of things.”
There is nothing impossible in any of the terms of the contracts.
Civil Code 1636 states;
“A contract must be so interpreted as to give effect to the mutual
intention of the parties as it existed at the time of contracting, as far
as the same is understandable and lawful.”
Civil Code 1638 states;
“The language of a contract is to govern its interpretation, if the
language is clear and explicit, and does not involve an absurdity.”
Civil Code 1640;
“When through fraud, mistake or accident, a written contract fails
to express the real intention of the parties, such intention is to be
regarded, and erroneous parts of the writing disregarded.”
38 | P a g e

4»

There is nothing in the written contract that fails to express the real
intention of the parties. Mr. Nilsson is simply attempting to change the terms after
accepting the contract as written.
Civil Code 1641 states:
“The whole of a contract is to be taken together, so as to give effect
to every party if reasonably practicable, each clause helping to
interpret the other.”
Civil Code 1643 states;
“A contract must receive such an interpretation will make it legal,
Operative, definite, reasonable and capable of being carried into
Effect if it can be done without violating the intentions of the parties.”
Nilsson et al’s ignores the intention of the contract giving himself benefits that do
Not exist; violating the contract.
Civil Code 1647 states;
“A contract may be explained by reference to the circumstance under
which it was made and the matter to which it relates.”
Judge Dixon ruled against Bator et al without reference to the contract, absolute
disregard for the intent of the contracts.
Civil Code 1648 states:
“However broad may be the terms of a contract, it extends only
to those things concerning which it appears that the parties intended to
contract.”
Mr. Nilsson’s interpretation of the contracts do not exist. Nilsson’s interpretation
is not part of any contract Bator et al entered.
Civil Code 1575 states;
“Undo influence consists;
39 | P a g e

1) In the use by one whom a confidence is reposed by another, or who

holds areal or apparent authority over him, of such confidence or
authority for the purpose of obtaining an unfair advantage over him.”
; In taking a grossly oppressive and unfair advantage of anothers
Necessities or distress.”
After Mr. Bator worked out having float cells to th

e property, Mr. Nilsson

attempted to gain an edge over the floatation cells. He attempted to renegotiate
the terms of the contracts and end up with property he has no claim against or
benefit he has no right to. Fraud and undue influence

as Mr. Bator is struggling

to complete the entire project.
Code of Civil Procedure section 33;
A prosecuting attorney, in his or her discretion may assist in the
civil resolution of a violation of an offense described in Title 3
(commencing with section 450) of Part 1 of the Penal Code in lieu
or filing a criminal complaint.”
In Siskiyou County the district attorney does not attempt to assist in a
fraudulent breach of contract, the assistant district attorney steals your child, get
caught in violating the law and then, to save her and her coconspirators, charges
the victim with crimes that never happened.
The dismissal of Bator’s cross complaint is unwarranted and in violation of
settled case law as expressed by the courts; the California Supreme Court, the
federal courts and The United States Constitution.
PART C ADDITIONAL CASE LAW AND F.RRORS
40 | Page

Judge Dixon is compelled to follow these established judicial standards.
These mandated actions are listed as errors made by Judge Dixon in her ruling against
Mr. Bator
GENERALLY
Pursuant the Constitution of the United States, Amendment # 7 the rules of the
common law apply in all proceedings in all courts of this land. See also Article I
section 10 (supra)
The California Constitution was adopted in 1872. California Civil code 22.2
acknowledges the common law is the law of the land. The Code of Civil Procedure
also acknowledges the common law section 1899-unwritten law defined;
Unwritten law defined. Unwritten law is the law not promulgated and
recorded, as mentioned in 1896, but which is nevertheless observed and
administered in the courts of the country. It has no certain repository, but
is collected from the reports of the decisions of the courts and treatises of
learned men. (enactedl872)
ERROR#!
Defendant/cross complainant has repeatedly supplied to the court and Judge Dixon,
decisions regarding the established procedures to be observed in the judge’s rulings.
Judge Dixon has not followed established common law principles in her decisions in
this case.
ERROR#2
A trial court must chose some remedy to safeguard a prisoner litigants rights of
meaningful access to the courts to prosecute or defend against a civil action-threatening
*411 P a g e

4?

1

his or her interests in cases where the prisoners civil action is bona fi4e and his or her
access to the courts is being impeded,
(choice #1) Appropriate remedies to secure a prisoners meaningful access to court in a
civil action include the deferral of the action until the prisoner is released;
Hoversten v. Superior Court 74 Cal App 4th 636
88 Cal Rptr 2d 197 (2nd Dist. 1999)
Wantuch v. Davis 32 Cal App 4th 786
39 Cal rptr 2d 47 (2nd Dist. 1995)
(choice # 2) The transfer of prisoner to court
Hoversten v Superior Court (supra)
(choice # 3) The utilization of depositions in lieu of personal appearance.

I
j

Hoversten v Superior Court (supra)
(choice # 4) The appointment of counsel for the prisoner.
Hoversten v Superior Court (supra)
(choice # 5) The holding of the trial in prison.

*
1
;
!

Hoversten v Superior Court (supra)

j
i

(choice # 6) The conducting of conferences or pretrial proceedings by telephone.
i

Jameson v Dista 179 Cal App 4th 672
101 Cal Rptr 3d 345 (4th Dist. 209)
Hoversten v Superior Court (supra)

I
!
»
I

Wantuch v Davis (supra)
42 | P a g e

(choice # 7) Tie use of closed circuit television or other modem electronic media.
Hoversten v Superior Court (supra)
Wantuch v Davis (supra)
ERROR#3
Defendant Anthony Bator has requested the court to correct its

Order denying

request for reconsideration purportedly because Anthony Bator failed to cite Code of
CM Procedure section 1008. Herein Bator cites Code ofCM Procedure 1008.
However, this iis putting form above substance. See Error # 10,11,12,
13,14, 19,21,22,
and 23, 27.
The request for reconsideration was based upon long established principles of law.
Herein citing the United States Supreme Court in Ex Parte Lange 18 Wall 163;
“TTie general principle asserted as applicable to both civil and criminal cases that
the judgements, orders and decrees of the courts of the country are under their
control and decrees of the courts of this country are under their control during
the term at which they are made, so they may be set aside or modified as law
and justice may require."

Bator is not an attorney. Bator is sure Esquire Griffith and his staff are far more
familiar with civil procedure than the defendant/cross plaintiff. However, two people,
David Nilsson and Anthony Bator are each and alone acutely aware of the details of the
contracts that they entered. This far, the court in not adjudicating this case based upon the

43 ( P a g e

/

4-

merits of the issues but on superficial issues or correctable procedure. This violates the
objectives of the California Justice System as stated in Ludzate Ins. Co. v Lockheed
Martin Corp (infra) and many other California Cases.
ERROR#4
The court has failed in its duties to protect the defendants (and prisoners) due process
rights. To permit the pre-trial conferences to proceed only with the presence of the
defendant/cross plaintiff
Judge Dixon failed to compel the sheriff to do any of the mandated procedures
specified in Error # 2 and requiring a hearing in a demurrer. Medix Ambulance Service
Inc. v. Superior Court (infra) states that a motion for demurrer a hearing is mandated.
ERROR#5
Regarding the parties to this suit, because of the failure of the court to compel
Bator’s appearance and the courts failure clearly state its findings if in fact any findings
have been made, Bator is unaware of who is or who is not a party to this suit.
Bator filed a cross complaint against David Nilsson. Proof of service has been
entered as evidence in this case. David Nilsson has failed to appear. Esquire Griffith has
not responded to the allegation against David Nilsson. He has responded to and for the
parties controlled by David Nilsson. Mr. Nilsson’s companies are not registered in the
State and there is no way to effect service. His suit should be dismissed.
44 | P a g e

tp

If a party fails to respond to a complaint or demurrer or otherwise, a default
judgement may be entered against him or her. California Code of Civil Procedure section
585, 586.
David Nilsson has not responded to either the case complaint or the amended cross
complaint. Defendant Bator believes the court has failed in its duty to enter and Entry of
Default judgement against David Nilsson or dismiss this suit.
ERROR#6
David Nilsson and Anthony Bator entered into a series of contracts that put David
Nilsson into the mining business. The resulting contracts were the Ore Purchase and
Processing Agreements. These arguments were worked out in detail between two parties,
Anthony Bator and David Nilsson. David Nilsson then, as though a dealer, delegated
these agreements to companies for tax and liability purposes. Bator alleges, as a result of
dealing with David Nilsson for a number of years that this arrangement, the additional
companies was done so that David Nilsson could pretend to have independent interests
to help him fraudulently take Bator’s property when the date and time he felt he could
most beneficially take this very valuable property.
David Nilsson should be an essential party to this suit Code of Civil Procedure
section 389 (a) and (b) or the suit should be dismissed.
Judge Dixon fails to comprehend the contracts herein and or is unwilling to
investigate the issues of the case to understand the issues articulated by tbc defendants
45' i P 3 g e

their cross complaint.
ERROR # 7
What is a demurrer?
A demurrer tests the sufficiency of the pleadings as a matter of law.
A demurrer admits all facts properly pleaded no matter how unlikely or improbable.
Kerivan v Title Ins. & Trust Co. 147 cal App 3d 225
195 Cal Rptr 53 (2d dist) 1983
Schifano v City ofLos Angles 31 Cal 4th 1074
Cal rptr 3d 457, 79 P. 3d 569
Defendant/cross plaintiff believes he very sufficiently articulated the basis for his
cross complaint, most certainly in the opposition to Plaintiff/cross defendants demurrer.
Judge Dixon has declined to admit all the facts pleaded by the defendant/cross
plaintiff. Defendant/cross plaintiffs believe Judge Dixon has not even considered them in
any light.
This has resulted in Judge Dixon inappropriately sustaining plaintiff/cross defendant
demurrer

ERROR#8
A demurrer for uncertainty must specify how and why the pleadings are uncertain and
must include reference to the page and line numbers where the uncertainty appears.
Fenton v Groveland Community Service dist. 135 Cal App 3d 797,
46 | P ? ? e

A

185 Cal Rptr 7581 (5th Dist. 1982)
Judge Dixon inappropriately sustained the demurrer without the specific deficiencies
being alleged to exist denying the defendant/cross plaintiff his due process rights.
ERROR#9
A demurrer “defendant demurs on all the following grounds” will subject the demurrer
to being overruled unless all the grounds exist.
Butler v Wyman 128 Cal App 736, 18 P, 2d (1st Dist. 1933)
Judge Dixon was provided the necessary information to overrule the demurrer.
Judge Dixon is putting form above substance in the granting demurrer of
defendant/cross plaintiff cross complaint. This contradicts the finding of the Supreme
Court of the State of California.
ERROR# 10
Non meritorious demurrers, both special and general, are subject to sanctions.
Furthermore, sanctions may be granted when the demurring party forces an unnecessary
hearing by refusing to stipulate to minor corrections of the complaint.
Ellis v Roshei Corp 143 Cal App 3d 642
192 Cal Rptr 57 (2d Dist, 1983)
The corrections required to comply with the allegations of plaintiffcross defendant if
They exist were and are minor. In the second demurrer. The defendant/cross plaintiff may
have failed to list toe four essential elements alleging fraud in a concise manner. The
47 | P a g e

■defendant/cross plaintiff believe this is a minor correction of form that was, in fact,
corrected in defendants/cross plaintiffs opposition to plaintiff/cross defendants demurrer.
Code ofcivil Procedure 430-60 states:
A demurrer shall distinctly specify the grounds upon which any objections to the
complaint, cross complaint or answer are taken. Unless it does so, it may be
disregarded.”
The grounds for the opposition to the demurrer (1st) were stated in the demurrer and
corrected in the defendants Bator’s Amended Cross Complaint. The grounds for the 2nd
motion to dismiss the demurrer were stated in the demurrer and the corrected in the
defendant/cross plaintiffs Opposition to plaintiffs cross defendants 2nd demurrer.
It is attorney Griffith who fails to specify what are the grounds for the demurrer.
Fhere was no basis for Judge Dixon to sustain the demurrer, other than a minor
correction in form if my deficiencies actually exist.
ERROR# 11
The California Supreme Court has consistently held that a plaintiff is required only to
set forth the essential facts of his or her case with reasonable precision and with
particularity sufficient to acquaint a defendant with the nature source and extent of his
cause of action.
Ludgate Ins. Co. v Lockheed Martin Corp. 82 Cal App 4th 592, 608
98 Cal Rptr 2d 277 (6[h Dist. 2000)
Young-man v Nevada hr. Dist. 70 Cal 2d 240, 245
4$ l P a

£

St)

74 Cal Rpfr 398, 449 P. 2d 462
Fenn v Sherriff 109 Cal App 4th 1466,1492
7 Cal Rptr 3d 185 (3rd Dist. 2003)
Elder v Pacific Bell Telephone co. 205 Cal App 4th 841,858
141 Cal Rptr 3d 48 (1st Dist. 2012)
Bator, defendant/cross plaintiff complied with the requirement. Judge Dixon erred in
sustaining the demurrer.
ERROR# 12
A plaintiff is required only to set forth in his complaint the essential facts of his case
with reasonable precision and with particularity sufficiently specific to acquaint the
defendant of the nature source and extent of the cause of action, Nothing more is
required.
Alch v superior Court 122 cal App 4th 339,390
19 Cal Rptr 3d 29,94
Fair Empl Proc. (Ca BNA) 793 (2nd Dist. 2004)
Judge Dixon erred in seeking more detail than is necessary to overrule the demurrer.
ERROR# 13
There is no need to require specificity in the pleadings because modem discovery
procedures necessarily affect the amount of detail that should be required in a pleading.
Doheny Park Terrace Homeowners ass ’n Inc v. Truck Insurance Exchange
132 Cal App 4th 1076.1079
34 Cal Rptr 157 (2d Dist, 2005)
Judge Dixon erred in requiring too much detail. Judge Dixon erred ip denying

5*

defendant Bator et al discovery.
ERROR# 14
In a complaint, less particularity is required where the defendant, herein Nilsson, may
be assumed to have knowledge of the facts equal to that possessed by the plaintiff.
Ludgate Ins. Co. v Lockheed Martin Corp. 82 Cal App 4th 592, 608
98 Cal Rptr 2d 277 (6th Dist. 2000)
Two people negotiated these contracts in detail. David Nilsson is being evasive in
answering the few Interrogatories and Admissions that he did because he knows of his
fraudulent conduct. The truth will result in his fraudulent conduct being exposed and he
will fail in his attempt to steal this property.
Judge Dixon in her refusal to overrule the demurrer is perpetuating and permitting
Nilsson’s fraud.
ERROR # 15
If a defendant demurrers to the entire pleading, the demurrer will be overruled if any
of the causes of action are good even though a demurrer might have been sustained- as to
one or more of the other causes of action.
Lord Garland 21 Cal 2d 840, 168 P. 2d 5 (1946)
Nilsson et al demurrer address how issues of fraud or breach of contract were to be
addressed. The complaint was amended in Bator’s Opposition to 2nd demurrer. No issues
regarding extortion or usury were addressed. These issues should not have been
50 | Page

demurred as no basis for the demurrer was stated.
Judge Dixon seems to be aware of all of the counts alleged against Nilsson et al and
fails in her judicial responsibility in sustaining the demurrer.
ERROR# 16
If a party fails to respond to a complaint by demurrer or otherwise a default
judgement may be entered against him. David Nilsson was served Code of Civil
Procedure 585 & 586.
Judge Dixon failed to enter entry of Default Judgement against David Nilsson. If
it is Judge Dixon’s position Mr. Nilsson was not served in California, because
he has no registry address Mr. Nilsson’s entire suit must be dismissed.
ERROR# 17
A court must allow oral argument for a demurrer before issuing a ruling.
Medix Ambulance Service Inc. v Superior Court 91 Cal App 4th 109,118
Cal Rptr 2d 249
Judge Dixon did not permit Anthony Bator, one of the two essential parties to this set
of Agreements, to participate in any oral argument regarding either demurrer.
ERROR # 18
The court must assume the truth of all properly pleaded material allegations of the .
complaint and give the compliant a reasonable interpretation by reading it as a whole and
its parts in their context.
51 j P a g e
&

Careau & Company v Security Pacific Business Credit Inc,
222 Cal App 3d 1371, 1381
!
272 Cal Rptr 387 (2nd Dist. 1990)
Judge Dixon has not given the cross complainant a reasonable interpretation and
ignores defendants affirmative defense.
ERROR# 19
The court will liberally construe the allegations in the pleading with a view toward
substantial justice between the parties. Code ofCivil Procedure 452.
Quelimane v Stewart Title Guaranty Co. 19 Cal 4th 26, 43 n.7
77 Cal Rptr 2d 709, 960 P. 2d 513.
Judge Dixon is failing in her duty to rule in the interest ofjustice.
ERROR #20
All facts properly pleaded in the complaint or cross complaint, no matter how
unlikely or improbable, are deemed admitted by the demurrer.
Kerivan v. Title Insurance and Trust Company 147 Cal App 3d 225,229
195 Cal Rptr 53 (2d Dist. 1983)
Friends of Glendora v City of Glendora 182 Cal App 4th 573.576
106 Cal Rptr 3d 334 (2nd Dist. 2010)
Judge Dixon fails in her accepting Bator arguments as should be admitted by Nilsson
et al demurring to the complaint.
ERROR# 21
To defeat a general demurrer a plaintiff is required to do no more than show that he or
j

p

dg?

she is entitled to some relief. That is so even where the facts may not be clearly stated or
when the plaintiff demand relief to which he or she is not entitled under the facts alleged.
Schnall v Hertz Corp. 78 Cal App 4th 1144,1152
93 Cal Rptr 2d 439 (1st Dist. 2000)
Judge Dixon fails on all counts to acknowledge Bator is entitled to relief
ERROR #22
A special demurrer should be overruled where the allegations of the complaint or
cross complaint are sufficiently clear to apprise the defendant of the issues which he or
she is to meet even though the allegations may not be as clear or as detailed as might be
desired. Bator contends all of his arguments are clear.
Williams v Beechnut Nutrition Corp. 105 Cal App 301, 135 139 n2
229 Cal Rptr 605
Product Lub Rep (CCH) P 11162, 2UCC Rep Serv 2d 1252 (2d Dist. 1986)
The allegations were/are sufficient to apprise Nilsson et al. the demurrer should have * '
been sustained.
ERROR #23
A demurrer should be overruled if it is to an entire complaint or cross complaint if it
contains allegations essential to the statement of any one cause of action even though an
abortive attempt is made to state facts calling for other or different relief
Certified Growers of California Ltd v. San Gabriel Valley Bank 150 Cal App 3d
53 | Psi e
&

281,283
1972 Cal Rptr 710 (2d Dist. 1983)
Judge Dixon refused to grant 1 of Bator’s complaints demonstrates her unwillingness
to rule pursuant the law.
ERROR # 24
When a judge sustained demurrer, he must specify a statement of reasons upon
which the ruling is based. A statement of reasons deemed sufficient if the judge simply
includes in the Order a decision to the appropriate pages and paragraphs of the demurrer.
Civil Code of Procedure 472(d)
Fremont Indemnity Co. v Fremont general Corp.
148 Cal App 4th 97 111-112
Cal Rptr 3d 6211 (2d Dist.2001)
Judge Dixon did not provide a statement of reasons upon which the ruling was based.
No justification for sustaining the demurrer exists.
ERROR #25
A general demurrer should not be sustained without leave to amend if the complaint
raises the possibility that its defects can be cured by amendment.
Litwin v Estale ofFormila 186 Cal App 4th 607,613
111 Cal Rptr 3d 868 (3d Dist 2010)
Judge Dixon fails to permit Bator et al to amend their cross complaint.
ERROR #26
Denial of leave to amend constitutes an abuse of discretion regardless of leave to
amend is required.
• 54 j -P a g e

Johnson v County ofLos Angeles 143 Cal App 3d 298
Cal Rptr 704 (2dDist. 1983)
Judge Dixon has abused her discretion in denying Bator et al to amend the complaint.
ERROR #27
It is an abuse of discretion to sustain a special demurrer without leave to amend since
it is directed to a defect of form rather than substance.
Jones v Daly 122 Cal App 3d 500, 506 n. 1
76 Cal Rptr 130 (2dDist. 1981)
Judge Dixon sustained the demurrer when what was alleged was a defect of form.
ERROR #28
Courts are extremely reluctant to grant demurrers without leave to amend unless there
is NO feasible way that the plaintiff or cross complainant can possibly amend to state a
viable cause of action. Indeed trial judges are very aware that appellate courts will go to
great lengths to protect California’s liberal policy of pleading and amendment.
Sanders v Cariss 224 Cal App 3d 985
274 Cal Rptr 186 (4th Dist. 1990)
Judge Dixon fails to acknowledge Bator et al can state a viable cause of action.
ERROR #29
Unless the parties waive Notice or the court orders otherwise, the party prevailing at
the demurrer hearing (denied to Bator) should within 5 days of the ruling mail or deliver
a Proposed Order to the other patty for approval as to form. Within 5 days after mailing
AS \ 3 g e

or delivery, the other party must notify the prevailing party as to whether or not the
Proposed Order is approved as to form or any reason for disapproval.
Cal Rules ofthe Court rule 3.1312(a) Thereafter, the prevailing party must promptly
Transmit the Proposed Order to the court together with a summary and responses of the
other parties.
Cal Rules ofthe Court 3.1312(b)
Judge Dixon, failed to comply with Rule 3.1312(a) Or 3.1312(b) or compel esquire
Griffith to Comply with the Rules of the Court.
ERROR # 30
Upon Motion for Reconsideration under the Code of Civil Procedure section 1008, if
the Proposed Complaint states any cause of action then the trial court must vacate the
Order which sustains the demurrer without the leave to amend and make a different Order
granting plaintiff leave to file an amended complaint.
Careau and Company v Security Pacific Business Credit Inc.
222 Cal App 3d 1371
272 Cal Rptr 387 (2d Dist 1990)
Judge Dixon has refused to permit Bator et al to amend the complaint filed against
Nilsson et al. Herein the Motion to reconsider filed with this Motion to Reconsider and
Judicial Notice of errors committed by Judge Dixon cites Code of Civil Procedure 1008
and Bator et al attempts to comply with the rales mandatcd.by this code.
56 \?a l: *

5^

liRROR #31
Code oj Civil Procedure section 430.60 states:
‘a demurrer shall distinctly specify the grounds upon which any objection to the
complaint, cross complaint or answer is taken.”
In both demurrers plaintiff/cross defendant specified two specific deficiencies of the
pleadings of Bator et al. Bator subsequently without Order from the court corrected these
deficiencies. The court had no reason to sustain Nilsson et aTs. demurrers.
ERROR #32
Cal rules of the Court Rule 3.1320:

“A special demurrer for uncertainty must specify how and why the pleading is
uncertain and must include reference to the page and line number where the uncertainty
appears. Bator contends there is no uncertainty.
Fenton v Groveland Community Services Dist.
135 Cal 3d 797
185 Cal Rptr 758 (5th Dist. 1982)
Judge Dixon has not compelled Nilsson et al, represented by a licensed attorney to
perform to the rules the attorney seems determined to compel Bator et al (non-attorney)
to abide by.
ERROR #33
Code ofcivil Procedure section 389. See Error # 6. The suit should not be permitted
to move forward without David Nilsson individually. Bator and Nilsson individually and
57 I P a g e

a

personally negotiated all of the contracts.
Judge Dixon is Permitting David Nilsson to perpetuate his fraud by sustaining
Nilsson et al s demurrers. Because Nilsson et al are not registered entities in the State of
California, his entire suit should be dismissed.
ERROR #34
Code ofcivil Procedure section 472(a) subd (c):
Subject to the limitations imposed by subdivision (e) of section 430.4f if a demurrer
is sustained, the court may grant leave to amend the pleading upon any terms as may be
just and shall fix the time within which the amendment or amended plea shall be filed.”
Judge Dixon failed to provide Bator the opportunity to amend his complaint pursuant
to Nilsson et af s 2nd demurrer regarding form after Bator corrected the deficiencies of
form in Nilsson et al’s first demurrer. Mr. Bator does believe there are no deficiencies per
arguments presented the demurrer.
ERROR #35
Code of civil Procedure section 472(a) subdivision (d):
Whenever a demurrer in any action or proceeding is sustained the court shall include
in its decision or Order a statement of the specific ground or grounds upon which the
decision is based which may be referenced to appropriate pages and paragraphs of
the demurrer. The party against whom a demurrer has been sustained may waive the
requirement.”
BATOR DOES NOT WAIVE THE REQUIREMENT! Bator et ai does not accept the
sustaining of the demurrers and demands this court overrule the demurrers and sustain
^i’Ppge'-

the suit or dismiss the plaintiffs suit in its entirety or specify how Bator et al failed and
part leave to amend the cross complaint.
Judge Dixon has not followed these fundamental principles of law as stated herein.
ERROR #36
Regarding sustained Demurrers:
When a court makes an order sustaining a demurrer without leave to amend the
question as to whether or not such court abused its discretion in making such an order is
open to an appeal even though no request to amend such pleading was made.
Judge Dixon abused her discretion in sustaining the demurrer.
ERROR # 37
Bator has spoke with jail house commander Lieutenant Jeff Houston. Lieutenant
Houston has indicated if the court ordered him to take Bator to the hearings for this case,
He would. Without a court Order Lieutenant Houston has stated he will NOT.
Judge Dixon is failing in her judicial duty to protect the constitutional rights and due
process rights of Anthony Bator. It is within her power. Judge Dixon has failed to assert
her power.
QUESTION PRESENTED
This suit involves rewarding a very valuable property to foreign companies (out of

suite) whose acts are not in conformity with these cotnpsrj.es contractual obligations, and
. 59 M’

g e-

ur

the reward of said properties are not in conformity with the law and case law.
These companies are doing business in the State of California. They are not registered
with the Secretary of California. They are not registered to do business in the state of
California. They are not registered to do business in the State of California. There is no
agent available for legal service, there is no information available about who the
principals are. The Superior Court has no jurisdiction to decide any collection issues;
even less to award California properties to these unregistered companies operating in
violation of the law.
the plaintiffs are unhappy with their decisions and they are attempting to modify and
alter the contracts they agreed to, to permit these companies to take the property they
desire.
David Nilsson is easy to understand. He has no honor and he is greedy. Nilsson has
maneuvered events to attempt to take the entire project. In doing so, he has committed
fraud, violated the terms and intent of the contracts, and violated multiple 1 aws.
If North American Conservation Trust and Anthony Bator were granted a fair trial the
award judgement to the plaintiffs would and should have been different. This suit should
have been dismissed for two very obvious reasons.
1) The Superior Court has no jurisdiction.
2) The plaintiffs are not in conformity with their contractual obligatipns. Civil Code
60 | P a g e

bets'

1439 and related court rulings, supra.
Judge Dixon is letting her emotions overcome her sense ofjustice. The crime that
Bator is accused of is heinous but the crime never happened.
The Siskiyou County legal community is attempting to destroy the Bator family. The
Bator’s are suing multiple members of that community for their illegal removal of the
Bator child in 2011... California Court ofAppeals for the Third Circuit Case No.
C084483.
When the Siskiyou County legal community realized the Bator’s would hold them
responsible for violating the law and stealing the Bator child, they fabricated false
charges against Mr. Bator, committed perjury and convicted Mr. Bator in a veryrunfair
trial. Mr. Bator will be filing a Habeas Corpus with over 130 substantial issues before the
end of the year.
Judge Dixon is part of the Siskiyou County legal community. Her peers are being
sued. Judge Dixon has been unable to separate her emotions from the facts and the law
involved in this suit. Judge Dixon has permitted her contempt for Bator to affect her
judgement.
Will the court permit the absolute disregard for contractual obligations and violations
of the law to proceed uncorrected?
This suit should be dismissed with prejudice.
51 j P a g e

13

ARGUMENT
1) The court. Judge Dixon is prejudiced against the Bator family. Mr. Bator has been
charged with multiple felonies that never'occurred. The felonies never occurred. Bator
was charged because the Bator family is seeking to hold the legal community in Siskiyou
County responsible for the illegal removal of the Bator child by that community. Five or
more of the members of that community are being civilly sued for the illegal taking of the
child and the Bator family has expressed that they want to criminally punish them for
their acts.
Judge Dixon objectiveness, to follow the obligations of the contracts, in controversy
here, has been impaired by her prejudice.
Because of that prejudice;
2) Judge Dixon has permitted plaintiff to argue form rather than the obligations imposed
by the contracts in controversy.
It is important to note, NACT and Mr. Bator believe that the form of their answers and
cross complaint are in the appropriate form. That the cross complaint and the answers and
admissions were provided and in conformity of the law.
Judge Dixon accepts as fact false statements made by Esquire Griffith over the truth
spoken by Bator. See affidavits by Virginia Pelsor and Tim Brummet regarding

62 -| P a.g-c

1

repeatedly providing answers to Griffiths Interrogatories and admissions.
Judge Dixon accepts Griffiths false allegations that Nilsson has attached mining
equipment to hold a lien on. He does not. Nilsson is committing fraud.
Judge Dixon accepts what are purchases of Ore as mortgages on the property. They
\

are not.
Judge Dixon accepts that Nilsson et al can contractually agree to pay off a mortgage
owned by sandy Payne and Judith ward per The Ore Purchase and Processing agreements
and then use these mortgages, that are paid off per contract, to take the property from
North American Conservation Trust, Bator et al.
CONCLUSION
The Bator family is engaged in a legal battle with the legal community employed in
Siskiyou County. Anthony Bator is in prison for a crime that was never committed. He
has been prosecuted because he chose to sue assistant district attorney Christine Winte
for her illegally removing the Bator child from the Bator home.
The prosecution was absolutely in retaliation for the Bator’s holding Ms. Winte and
her coconspirators liable, civilly and hopefully criminally, for their illegal acts; that
community chose to prosecute Bator.
Mr. Bator cannot isceive a fair trial in Siskiyou County. Judge Dixon works with all
of the defendants who arc involved in California Court of Appeals for the Third District

63 1 Page

Case No. C084483. Judge Dixon prejudice against the Bator family has interfered with
her ability to fairly execute the law and the rights of the Bator family.
Violations of the law are documented herein;
1) The companies suing North American Conservation Trust and Bator are foreign
companies, (not from California). They are not registered to do business in
California and no person is available to accept legal service resides or has an
office in California.
2) Judge Dixon awarded Nilsson et al a judgement of $13,000,000.00. The
$13,000,000.00 was to be paid to Nilsson from the ore he purchased and his ore
was run through the processing mill he failed to fund. Nilsson et al breached the
contract - not Bator.
3) Rather than an award ofjudgement, the contracts between the parties provide the
sole remedy in the contracts for any default is to give control of the mill with any
default a short fall is brought current. If Nilsson gained control, Nilsson et al
would receive their $13,000,000.00, 80% of the gold to Nilsson et al, 20% to
North American Conservation Trust et al.
4) No demand for payment by Nilsson et al was ever presented.
5) No payment was ever due to Nilsson et al as none was due.
6). Judge Dixon is violating Article I section JO of The United States Constitution
64 j P <•: p. e

by ruling,.as she has impairing, the contractual obligations of Nilsson et al for
the funding of a complete mill.
7) Judge Dixon sustained a demurrer when the cross plaintiff clearly
demonstrated a cause of relief.
8) Judge Dixon denied Bator the ability to be heard at all of the important
Hearings that decided this case. See error # 2 Part C.
9) Upon request Judge Dixon denied the Bator family a court reporter.
10) There are open Motions Judge Dixon has refused to rule on.
Wherefore the appellant requests this court dismiss the suit against North American
Conservation Trust and Anthony Bator with prejudice.
Or, as the Court deems appropriate.
Dated December 12,2018, California
/

&£* zt_r „
Anthony Bator'executive trustee North American Conservation Trust
Anthony Bator, individually

^

Irene Bafor trustee North American Conservation Trust

SS S P a g €

y

\6
/ _-/

CERTIFICATE OF COMPLIANCE

Petitioner of record hereby certifies that pursuant to Rule 8.204(c)(1) or 8.360(b)(1) of
the California Rules of Court, the enclosed Opening Brief is produced
using 13 point Roman type including footnotes and contains approximately 13,422 words
which is less than the total words permitted by the rules of the court. Petitioner relies
the word count of the computer program used to prepare this Opening Brief.

Dated; 12/12/2018

Signed:
Print Name: £41<S.P>
Pro Per

66

on

i' ’V '•

______;APj\-OOS
PROOF OF mmiCE (Court of Appeal)
QFj &a!(

i

‘.... 1 Personal Service

Notice: This form may be used to provide proof that a document has been
served in a proceeding in the Court of Appeal. Please read information
Sheet for Proof of Service (Court of Appeal) (form APP-009-INFO) before
completing this form. Do not use this form for proof of electronic service.
See form APP-009E.

Case Name: Nilsson et al v Bator et al
Court of Appeal Case Number CO 87168
Superior Court Case Number: SCSC-CVMS 2015-122-1
1. At the time of service I was at least 18 years of age and not a party to this legal action.
2. My

f'X [ residence

|

[ business

address is (specify): 503 Henely Hornbrook Road
Hornbrook, Ca. 96044

3. I mailed or personally delivered a copy of the following document as indicated below (fill in the name of the document you mailed or
delivered and complete either a or b):

OPENING BRIEF
a. fx | Mail. I mailed a copy of the document identified above as follows:
(1)

I enclosed a copy of the document identified above in an envelope or envelopes and
(a) I x I deposited the sealed envelope(s) with the U.S. Postal Service, with the postage fully prepaid.
(b) I

I placed the envelope(s) for collection and mailing on the date and at the place shown in items below,
following our ordinary business practices. I am readily familiar with this business’s practice of collecting
and processing correspondence for mailing. On the same day that correspondence is placed for collection
and mailing, it is deposited in the ordinary course of business with the U.S. Postal Service, in a sealed
envelope(s) with postage fully prepaid.

(2)

Date mailed: F2-

(3)

The envelope was or envelopes were addressed as follows:
(a) Person served:

(i) Name:Clerk of te Court
(") Address:Court of Appeal, Third Appellate District
914 Capitol Mall
Sacramento, Ca. 95814
4814
(b) Person served:

(i) Name: Clerk of the Court
(il) Address: Superior Court, Siskiyou County
311 Fourth Street, room 206
Yreka, Ca. 96097
(c)

Person served:

(i) Name: Esquire David Griffith
(ii) Address:Griffith & Horn
1530 Humboldt Road, suite 3
Chico, Ca. 95928
Additional persons served are listed on the all? shed page (write “APP-009, Item 3a” at the top of the page).
(4)

> am a resident of or employed in the county whera ti-e rfv-iilnn occurred. The document was mailed from
(city ,nd slate):
^
r'fne 14;''

. -.-ycdfor Optional Use
•■.ointi! cl California
January 1,2017]

,

K-OGr
(Cou/t

Appeal)

GEB

www.ceh.rnm

‘APP-0Q9, Item 3a'
Clerk of the Court
Supreme Court of California
350 McAllister St.
Room 1295
San Francisco, Ca. 94102

70

•.

C'r-NC^

Court
1 Nilsson et-al. v Bnto
______

i..:

«i w

1.5-122- i

3- b- CU Persons! delivery. Ipsrsonaily delivered a copy of the document identified above as foliows:
(1)

Person served:
(a) Name:
(b) Address where delivered:

(c)

Date delivered:

(d) Time delivered;
(2)

Person served:
(a) Name:
(b) Address where delivered:

(c) Date delivered:
(d) Time delivered:
(3)

Person served:
(a) Name:
(b) Address where delivered:

(c) Date delivered:
(d) Time delivered:

0

SerV6d and deliVery dateS and ,imes are liSted 0n the atlached Pa9® CM*

I declare under penalty of penury under the laws of the State of California that the foregoing is true and

Date:
;

correct.

Y2/\2-/zX>IG£>

■/Wini<i/ iPol

-V

.'.r-fr? OftPEUlT NAME OP PERSON COMPLETING THIS FORM)
^fpIGNATURE OF PERSON COMPLETING THIS rOK.Vi)

J wjun 1, 201?')

PROOF OF SERVICE
(Court of Appeal)

f'TTy-

Lm

(
j

di
•DAVID R. GRIFFITH, ESQ. (S3N 170172)
GRIFFITH & HORN, LLP
1530 Humboldt Road, Suite 3
Chico, California 95928
Telephone: (530) 812-1000
Facsimile: (530) 893-1093
Email: david@davidgriffitlilaw.com

2

4

5

i

FILED
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SISKIYOU

JUN -4 2018
BY:

jQndtu^—""
DEPUTY CLERK

Attorney for Plaintiffs DAVID NILSSON, Trustee of the
NILSSON FAMILY REVOCABLE TRUST,
OLYMPIC INVESTMENTS LLC,
HOME TICKET VENTURES, INC.
OROFINO VENTURES, LLC

6
7
8

9

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SISKIYOU

10
11

DAVID NILSSON, Trustee of the NILSSON ) CASE NO.: SCSC-CVMS-2015-01221-1
)
FAMILY REVOCABLE TRUST,
) JUDGEMENT
OLYMPIC INVESTMENTS LLC,
)
HOME TICKET VENTURES, INC.;
)
OROFINO VENTURES, LLC,
)

12
13
14

Plaintiffs,

15

16

VS.

ANTHONY J. BATOR; BATOR MINING;
NORTH AMERICAN CONSERVATION
TRUST; ANTHONY J. BATOR, Trustee of
NORTH AMERICAN CONSERVATION
TRUST; IRENE BATOR, Trustee ofNORTH
AMERICAN CONSERVATION TRUST;
ERNEST ALDRIDGE, Trustee ofNORTH
AMERICAN CONSERVATION TRUST;
HEATHER ALDRIDGE, Trustee ofNORTH
AMERICAN CONSERVATION TRUST;
and DOES 1 through 20, inclusive,

17
IS

19
20
21
22
23

Defendants

24

)
)
)
)

)

)
)
)
)

)
)
)
) Date: March 16, 2018
) Time: 8:30 a.m.
) Dept.: 9
) Hon. Karen Dixon. Judge
)
)
)

25

IT IS ORDERED, ADJUDGED, AND DECREED that Judgement is entered in favor

26

of Plaintiffs DAVID NILSSON, Trustee of The Nilsson Family Revocable Trust, OLYMPIC

27
28

! JUDGMENT

l

I!

I.

!

INVESTMENTS. LLC, HOME TICKET VENTURES, INC., and OROFINO VENTURES;
LLC, and against Defendants ANTHONY J. BATOR, individually, as Trustee of the North
3

American Conservation Trust, and doing business as BATOR MINING, as follows:

4

5

1.

There is now due and owing to Plaintiffs DAVID'NILSSON, Trustee of The Nilsson

6

Family Revocable Trust, and OLYMPIC INVESTMENTS, from Defendants ANTHONY J.

7

BATOR, individually, as Trustee of the North American Conservation Trust, on the debt owed

8

under the $110,000.00 Installment Note secured by that certain Deed of Trust With Assignment

9

t

of Rents dated February 23, 2004 recorded as Instrument No. 04-0003632 on March 12, 2004 in

10
-11

the Official Records of the Siskiyou County Recorder's Office, State of California, the sum of

12

S107,245.78 (representing principal owed in the amount of $76,729.63 as of February 26, 2018,

13

accrued interest at the rate of 6% in the amount of $28,996.15. and late fees of $1,520.00), plus

14

daily interest at the rate of 6% per annum accruing on the principal sum in the amount of $12.61

15

per day (i.e., $76,729.63 x 6% = $4,603.77 divided by 365 days = $12.61) after February 26,

; 16
' 17

2018, until paid.

18

2. There is now due and owing to Plaintiffs OLYMPIC INVESTMENTS, LLC, HOME

19

TICKET VENTURES, INC., and OROFINO VENTURES, LLC, from Defendants ANTHONY

20

J. BATOR, individually and as Trustee of North American Conservation Trust, and doing

- 21

business as BATOR MINING, and NORTH AMERICAN CONSERVATION TRUST on the
22
23

debt owed under the Ore Purchase Agreements secured by that certain Deed of Trust recorded in

24

the Official Records of the Siskiyou County Recorder's Office, State of California as Document

25

Number 09-0010115 on October 1,2009, the sum of S12,751,200.00, plus daily interest at the

26

rate of 10% per year after entry of judgment, or $3,493.47 (i.e., $12,751,200.00 x 10% =

21
28

$1,275,120.00 divided by 365 days = $3,493.47 per day):
JUDGMENT

i.

!

7f

l

i!

i
i

-t

1

a. The real property described below, or as much of it as may be necessary, shall

2

be sold in the manner prescribed by law by the levying officer of Siskiyou County, California, on
proper application for issuance of a writ of sale to the levying officer.

4

b. Any party to this action may be a purchaser at the sale.
5

c. From the proceeds of the sale, the levying officer shall deduct the expenses for

6
•J

the levy and sale and shall then pay to Plaintiffs the sums adjudged due, together with interest at

8

the rates stated above.

9

d. If any surplus remains after making those payments, it shall be paid by the

10

levying officer to Defendant ANTHONY J. BATOR, individually, as Trustee of the North
11

American Conservation Trust,

.12

e. No defendant is personally liable for any deficiency between the sale price and

13
14

the total amount due plaintiffs together with expenses of sale.

•‘15

f. A deficiency judgment being waived, the property shall be sold as provided in

16

Code of Civil Procedure Section 716.020.

17

g- From and after delivery of a deed by the levying officer to the purchaser at the

• 18
19

sale, Defendants ANTHONY J. BATOR, individually, as Trustee of the North American

20

Conservation Trust, and doing business as BATOR MINING, and all persons claiming under

21

them or having liens subsequent to the trust deed on the real property described below, and their

22

personal representatives, and all persons claiming to have acquired any estate or interest in the
23
24

property subsequent to the filing of notice of the pendency of this action with the county

25

recorder, are forever barred and foreclosed from all equity of redemption in, and claim to, the

26

!
j property and
1

ever}7 part of it.

27!!
”

! JUDGMENT

7/

;
<

t

' h. The property that is the subject of this judgment and order is located i-n
2

County, California, and is described as follows:
ALL THAT REAL PROPERTY IN THE STATE OF CALIFORNIA,
COUNTY OF SISKIYOU, UNINCORPORATED AREA, DESCRIBED
AS FOLLOWS:

4
5

Those lode mining claims known as Trust Buster No. 1, Trust Buster
No. 2 and Trust Buster Mill Site described and recorded as follows:
Mineral Survey Nos. 6427-A and 6427-B, respectively, embracing^
a portiorTof'ScctioiTI07To^^sln^7'NoH‘fii7'Ilange"8' West, Mount
Diablo Meridian.

6
7
8

9

APN: (79-00) 6-060-020, 030.

10

AND

II

Those lode mining claims numbered CAMC 274932,27493j$ and 274934
recorded in Siskiyou County Recorder’s office as Instrument Numbers
199810291356, 1998102913528 and 19981022913529 and known on
the BLM’s records as TRUSTBUSTER #4, TRUSTBUSTER #5 and
TRUSTBUSTER #6, respectively. Together with the rents, issues and profits
thereof, subject however, to the right, power and authority hereinafter given
to and conferred upon Beneficiary to collect and apply such rents, issues
and profits.

12

13
14

15
16
17
18

IT IS ORDERED, ADJUDGED, AND DECREED that:
3. There is now due and owing to Plaintiff OLYMPIC INVESTMENTS, LLC from

19
20

Defendant ANTHONY J. BATOR under the loan agreement secured by the security agreement

21

and UCC-1 Financing Statement filed on October 25,2009 as Document #22733650002, Filing

22

#097212205634, the sum of S160,342.13 (representing principal owed in the amount of

23

$114.873.42 as of March 1,2018, and accrued interest at the rate of 10% in the amount of

24

$45,468.71), plus daily interest accruing on the principal sum due at the rate of 10% in the
25

26
27

amount of $31.47 per day (i.e.. $114,873.42 x 10% = $11,487.34 divided by 365 days = $31.47)
after March 1,2018 until paid.

28 j JUDGMENT

4

1(f

t

i
i t

a.
2

Plaintiff OLYMPIC INVESTMENTS, LLC may take possession of the

“Collateral” described below.
b. The personal property Collateral described below, or as much of it as may be

4

necessary, shall be sold in the manner prescribed by law by the levying officer of Siskiyou

5

County, California, on-proper application for issuance of a writ of sale to the levying officer.

6
7

c. Any party to this action may be a purchaser at the sale.

8

d. From the proceeds of the sale, the levying officer shall deduct the expenses

9

for the levy and sale and shall then pay to Plaintiff the sums adjudged due, together with interest

10

at the rate stated above.

-n

e. If any surplus remains after making those payments, it shall be paid by the

12

levying officer to Defendant ANTHONY J. BATOR.

13
14

f. No defendant is personally liable for any deficiency between the sale price and

15

the total amount due Plaintiff together with expenses of sale.

16

g. A deficiency judgment being waived, the property shall be sold as provided in

17

Code of Civil Procedure Section 716.020.

18

h. From and after deliver)' of a bill of sale by the levying officer to the purchaser

19
20

at the sale, Defendant ANTHONY J. BATOR and all persons claiming under him or having

21

liens subsequent to the lien on the personal-property Collateral described below, and their

22

personal representatives, and all persons claiming to have acquired any interest in the property

23
24

subsequent to the filing of notice of the pendency of this action with the county recorder, are

25

forever barred and foreclosed from all equity of redemption in. and claim to, the property and

26

every part of it.

27
2S !j

•«

JUDGMENT

i!
M

11

-77

t.
i. The personal property'Collateral that is the subject of this judgment and order is
2

located in County. California, subject to the UCC-1 Financing Statement filed on October 25,
2009 (Document #22733650002 and Filing #097212205634) and more particularly set forth on

4

Exhibit “A” attached hereto.

5
6

IT IS ORDERED, ADJUDGED, AND DECREED that:

7

4.

Cost of suit is awarded to Plaintiffs.

5.

Attorney’s fees are awarded to Plaintiffs in

8

amount to be determined by the

9
Court by way of motion and further order of the Co
10

Dated:

li

6'

JUDGE OF

SUPERIOR COURT

KAREN L. DIXON

12

This instrument (ii caret cay of ft >
wtyMlenflfefflMaflffla.

13

ATTESf

14

JUN 2 6 201 i

RENEEMcCANNA CRANE

15

Offloads towta Court at tteteflat1

16

0**t

17

18
19
20
21
22
23
24

25
26
27

“S H JUDGMENT
; i

l
i

:

i

1

Equipment Descriptor.

'

--------------~

ViN, Serial Number or Otheridentlfier
“
• JL:Aolman Trap Conveyor with steel stends/elactrontr controls"
—-ne ~ AlHtems are Located at Trust Buster Mill sire
-USt'r‘MaChine w°rJjlL°:x36- Jaw Crusher - Reftirbishsdnewjawplates and snrln„T
3 - Conveyors_____
r------ jerial # 4014 - Located atTrustBuster Mill Site ~
_None-All Items are Located at Trust Buster Mill sir* •••
JSarmac 8600 Impact Crusher with 250 HP Motor
J.999 Ford Ranger Pickup Truck - Red
------ None - All Items are Located at Trust Buster Mill Site
_VjN 1FTZR15V0XPB1030Q - located at Trust Buster Mil! Site
Armadillo 4'xlO' double deck vibrating screens
_5erial
# 41-562 - located atTrustBuster Mill Site
Gallagher 3“?c3* slurry pump with Toshiba 40 HP Motor
_Serial
#
100602092 . All Items are Located at Trust Buster Mill Sir*
_3_. Sweep Screens 48° diameter multi-deck screens ~~
”
#2171, #TBD, and #TBD - a>Tn,^
Mn| S|te
.SweepScreen
_Spare Sweco Screens and retention ring's, etc.________
None-All
Items
are
located
at
Trust
Buster
Mill
Site
Oversize to two conveyors to hopper__________
None - All items are Located at Trust Buster Mill Site
_H.0PPer - oversize with convcyors/electrortic controls
None - All Items are Located at Trust Buster Mill cn-» '
’
'
2 - New Large Stutenroth ImpactMQls with New 50 HP Motors
_None
Located
at.Trust
Buster
Mill
Site
Stutenroth Steel Impeller Parts
-------------------------Located at Trust Buster Mill Site
~
None
All
Items
are
Located
at
Trust
Buster
Mill
Site
~
~—' None - All Items are Located at Trust Buster Mill Site
-------- None-All Items are Located atTrustBuster Mill Site
None- All Itemsare Located atTruseBuster Mill Site

J4ix-up Tank with Gallagher Pump, Motor and Trough
_________
Un3erslze to Mix-up Tanks with Edactors. Pumps/Tm,.^*
“
_Manofoid with Valves, Regulators, Hoses, etc.
_HumphreySpirals with Cement Base

~

~~~i---- -

~

5 - i-CON Concentrators with Metal Stands, Valves, etc
and
Knudsen Bowl Concentrator
Clean Gold Plate
UHF FinishlngTable
ThickenerTank

’
------------------------------- --------- _None- located atTrustBuster Mill Site
-None
All
Items
are
Located
at
Trust
Buster
Mili
Site
~
~
“
1
-------- -----None
Located
at
Trust
Buster
Mill
Site
-------------------None - Ali Items are Located at Trust Buster Mill
“
-Electnca! Rooms and Electrical Equipment. Soft Starter, Trans. Murphv
Ssanna 150KW Diesel Generarnr~------------------- None - AH Itemsare Located at Trust Buster Mill Site
Marathon MagnaMax 400KW Diesel Generator
'
‘---------------- ---- - -PS14A01 - 908121 - Located atTrust Buster Mill Site
Serial # TK3414987 - located at Trust Buster Mm
21 - Wemco Model 56 Flotati on Ceils, Auto Samplers and Steel Catwalks
Serial #s 6237627, 6337627, 6939280-1, 6939280-2 and 6939280-3 tSix
located atTrust Buster Mill Site: IS at SHdham
**
ng in Yreka
John Deere 450G Dozer with 6-way blade_________
ferial # UB7845T- Type‘T5E3M - Located atTrust Buster Mill siZ
Ford 555C Backhos
~
.
-Serial # AB09275 - Located atTrust Buster Mill Site
4lf1 K°matSU PC3q0LC-3 Excavator with 42-lnch Buclrerwit-h Hydraulic Thumb
_Serial # 12449 - Located at Trust Buster Mh>»
• Upper Road
■ 1976 pcc!ain Rc 2°Q Excavator with approximately 2400 hours
Ji£risf^J02693_-Located atTrust Buster Mill Sire
_198Q AM General M920 Dump Truck Rebuilt with new Dump Bnrfy3i mii,»
Jgrial * OT5816-60-10559 - 2007 Fully Rebuflr
n,.“
_1?78 Ford Dump Track with CAT320B Enpine
.Located
atTrustBuster
Mine
Site
Upper
Road
~
1978 GMC 7000 Diesel Fuel Truck f54K miles!
JMN
#T17DB9V600797
Truck
Is
Located
atTrust
Buster
Mill
Site
1976 Chevrolet Flatbed Truck
-California License Plate 95746D- Located atTrustBuster Miuj^T"
-21,000 GVW Gooseneck Trailer, Chains and Bind ers
#0928 - Trailer is Located at Trust Buster Mill Site
. Nevy&ort Motor Home-Located
at Trust Buster Mill Site
"
Nomad Trailer__________
”
~

California License Plate EU8414- Located atTrust R.,«r»r mu.
V1N 1H2V02812CH031767- Located atTrustBuster Mill Site
None-All Items are Located atTrustBuster Mill Site
Wash Plant Is located at Trust Buster Mill Site
None - All Items are Located atTrust Buster Mill Site

Semi Trailer with Assay Lab, Kiln and Atomic Absorbtion
Tool Trailer.Tools. Welder Cutting Torches, etc
Wash Plant mounted on skids
Sjowcrand Underground DuctSystem
Retention Pond Equipment and Pond Liner

None - All Items are -located atTrust Buster Mill Site

$
fJL 9

AV

^

~

Cot:ri of App:;.;!,i,

i. Or.-iri-r*

V.id.Tu A V'/AAi,. 0-.-|.,.:. \
fJifCironioaily ) ALiTOii AAAACV : : ......

NOT TO BE PUBLISHED

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Siskiyou)

DAVID NILSSON et al.,

C087168

Plaintiffs and Respondents,

(Super. Ct. No.
SCSCCVMS2015012211)

v.
ANTHONY BATOR, Individually and as Trustee,
etc., et al.,
Defendants and Appellants.

Appellants Anthony Bator, Bator Mining, and North American Conservation Trust
(Bator) and respondents David Nilsson, Olympic Investments, LLC, Home Ticket
Ventures, Inc., and Orofino Ventures, LLC (Nilsson) entered into a loan agreement and
an ore purchase agreement secured by real and personal property of the mining operation.
Relations between Bator and Nilsson deteriorated, culminating in a whirlwind of
protracted litigation. Ultimately, the court granted Nilsson’s motion for summary
judgment, moceeding ;n pro. per., Bator appeals. We shall affirm the judgment.

i 61^

Dcpp’A Cwvv

FACTUAL AND PROCEDURAL BACKGROUND
Nilsson purchased an interest in a note and deed of trust executed by Bator in the
amount of $110,000. Nilsson alleged Bator failed to make the required payments under
the note and deed of trust. Bator and Nilsson entered into a separate ore purchase and
processing agreement. Nilsson alleged Bator breached the agreement by failing to abide
by its terms.
Complaint
In September 2015 Nilsson filed a complaint alleging Bator’s breach of the two
agreements. Nilsson sought damages and also requested a judicial foreclosure of
Nilsson’s security interest in and collateral related to Bator’s mining operation. The first
cause of action sought judicial foreclosure on the deed of trust. The second cause of
action sought judicial foreclosure on the ore purchasing and processing agreements.
Bator answered the complaint.
Cross-complaint
Bator filed a cross-complaint. Nilsson filed a demurrer to the cross-complaint and
amotion to strike portions of Bator’s answer. Bator opposed both. In March 2016 the
trial court sustained Nilsson’s demurrer to Bator’s cross-complaint and ordered Bator to
file an amended cross-complaint and an amended answer by May 13, 2016.
Subsequently, Nilsson filed a series of discovery motions.
On May 12, 2016, Bator filed a second amended cross-complaint asserting 52
claims for relief and an opposition to Nilsson’s discovery motions. Bator also filed an
amended answer to Nilsson’s complaint.
In June 2016 Nilsson filed a demurrer to Bator’s second amended cross-complaint.
The parties filed various discovery motions.

2

/z«_

The trial court granted Nilsson’s demurrer without leave to amend. Bator filed a
late opposition to the demurrer. Bator also filed a motion for reconsideration of the trial
court’s order sustaining the demurrer.
Discovery Imbroglio
The court denied Bator’s discovery motion and granted Nilsson’s discovery
motion in part. Bator filed a flurry of motions challenging the court’s order.
In October 2016 the court denied Bator’s motion for reconsideration and ordered
Bator to provide responses to Nilsson’s discovery requests. Nilsson filed a discovery
motion seeking evidentiary or terminative sanctions for Bator’s continued failure to
respond to interrogatories, produce documents, and respond to requests for admissions.
Bator filed a combined motion to strike and dismiss the pleadings filed by Nilsson,
which Nilsson opposed. Bator also filed an opposition to Nilsson’s discovery motion
seeking evidentiary or terminative sanctions.
The trial court granted Nilsson’s discovery motion in part and ordered Bator to
provide a response, but denied the request for sanctions. The court denied Bator’s motion
to strike/dismiss the pleadings.
Nilsson filed another discoveiy motion seeking sanctions. Bator filed an
opposition, to which Nilsson filed a reply. The trial court heard Nilsson’s motion and
requested Nilsson provide additional information as to whether documents provided by
Bator were responsive to the discovery request. Nilsson filed a supplemental declaration
in response.
Subsequently, the trial court granted Nilsson’s discovery motion in part, noting
Bator failed to provide sufficient responses to discovery. The court also directed Nilsson
to prepare a declaration on the time spent on the discovery motion for an award of
monetary sanctions. Nilsson submitted the declaration on hours spent.

is

The trial court entered an order granting Nilsson’s discovery motion and ordering
Bator to provide responses to interrogatories and demands for production of documents
and to pay monetary sanctions in the amount of $2,587. Bator filed “Answers to Courts
(sic) Request or Additional Answers.”
Nilsson filed another motion for sanctions for Bator’s continued failure to provide
t

compliant responses to discovery. The trial court granted the motion and made a series of
findings. The court found Bator: “failed and continues to fail to comply with his
discovery obligations, repeatedly misused the discovery process over the course of about
17 months, and disobeyed multiple prior Court discovery orders compelling compliance,
such that the imposition of terminating sanctions is warranted ... [citations] ... ffl]
2. The Court finds that under the circumstances, lesser sanctions in the form of monetary
sanctions are not likely to curb future misuses of the discovery process by said
Defendant, flj] 3. The Court orders an evidentiary sanction pursuant to Code of Civil
Procedure section 2023.030(c) prohibiting Defendant... Bator ... from presenting
evidence at trial related to any facts, witnesses or documents related to or supporting the
denials of material allegations or special or affirmative defenses raised by Defendant
herein (Form Interrogatory 15.1). H] 4. The Court orders an evidentiary sanction
... [citation] prohibiting Defendant... Bator ... from presenting evidence at trial related
to any facts, witnesses or documents related to any contract giving rise to this action
(Form Interrogatory no. 50.1, et. seq.) ffl] 5. The Court reserves ruling on the issue of
monetary sanctions related to the motion being imposed upon Defendant... Bator
... individually and/or as Trustee
Summary Judgment
In October 2017 Nilsson filed a motion for summary judgment. In response, Bator
filed several random documents.

4

The court granted the motion for summary judgment including a judgment of
judicial foreclosure of Nilsson’s security interest in the real and personal property of
Bator’s mining operation. The court found: “Plaintiffs have made a prima facie showing
that they are entitled to summary adjudication as a matter of law because Defendants
Anthony J. Bator, individually, as Trustee of the North American Conservation Trust, and
doing business as Bator Mining, breached and defaulted on the contractual agreements
identified in the Verified Complaint resulting in damages to Plaintiffs and thereby
entitling Plaintiffs to foreclose upon real and personal property securing Plaintiffs’
interests in the contractual agreements. The Court finds that, in light of Defendants’
failure to submit any opposition to Plaintiffs’ motion and in light of the Court’s
September 27, 2017, Order Granting Plaintiffs’ Motion for Sanctions, pursuant to which
Defendants are prohibited from presenting any evidence at trial related to any facts,
witnesses or documents related to or supporting the denials of material allegation or
special or affirmative defenses raised by Defendants, and from presenting any evidence at
trial related to any facts, witnesses or documents related to any contract giving rise to this
action, Defendants have failed to meet their burden of establishing that a dispute exists as
to any material fact on any cause of action.”
Nilsson filed a memorandum of costs for $35,907.75, including requested attorney
fees. The court also granted Nilsson’s motion for an award of attorney fees.
The court entered judgment in favor of Nilsson. Bator filed a notice of appeal.
DISCUSSION
I
We begin by noting Bator, proceeding in pro. per., has filed a 65-page opening
brief devoid of either citations to the record or coherent legal argument. Instead, Bator
regurgitates his version of events and lambasts the court as biased and complicit in a
conspiracy against him.

5

U

According to Bator: “Mr. Nilsson represented himself as a venture capitalist, a
specialist in raising capital; and seeking higher returns for taking risks. Returns are high
because the concept of being a venture capitalist accompanies the commitment to
accomplish and finish goals. In the contracts between the parties here the contracts call
for completion of the processing mill. The contracts identify that Mr. Nilsson purchased
gold bearing ore. Mr. Nilsson’s failure to fund the mill kept his ore from being
processed. He made the decisions that caused the delays in completing the mill. Mr.
Nilsson’s failure to pay Bator’s salary caused Bator’s financial problems. Mr. Nilsson
engineered the incompletion of the mill. Because of his actions, he now attempts to
enrich himself by attempting to take over this project clearly violating the intent of the
parties. Judge Dixons [sic] prejudices [szc] against Mr. Bator has permitted this
fraudulent attempt to take North American Conservations [szc] Trust’s property and
Bator’s company.” Bator cites nothing in the record to support these claims.
As for the discovery issues, Bator asserts: “Mr. Bator’s answers were 100%
accurate. Unfortunately for Griffith [Nilsson’s counsel], Bator’s answers are 100% true
and do not support Griffiths [szc] allegations and demonstrate it was Nilsson who
breached the contracts, ffl] This suit, these contracts are a big deal. When this mine is
operating, the value of the project will easily exceed 100,000,000.00 not in gold value, in
what can happen with good management and operations begin. [^] Mr. Nilsson’s greed
has overcome his honor. [If] Mr. Nilsson et al could not prevail in this case without a
judge who appears unwilling to enforce the contracts or the law. [f] Mr. Nilsson et al
could not prevail in this case without a judge who is prejudice [sic] against the
defendants.”
II
On appeal, a party challenging an order has the burden to show error by providing
an adequate record and making coherent legal arguments, supported by authority, or the

6

si

claims will be deemed forfeited. (See People v. Freeman (1994) 8 CaUth 450,-482, fn. 2; Ballard v. Uribe {1986)41 Cal.3d 564, 574-575; In re S.C. (2006) 138 Cal.App.4th
396, 408.) The rules of appellate procedure apply to plaintiffs even though they are
representing themselves on appeal. (Leslie v. Board ofMedical Quality Assurance
(1991) 234 Cal.App.3d 117, 121.) A party may choose to act as his or her own attorney.
We treat such a party like any other party, and he or she “ ‘is entitled to the same, but no
greater consideration than other litigants and attorneys. [Citation.] 5

(Nwosu v. Uba

(2004) 122 Cal.App.4th 1229, 1247.) Accordingly, we consider Bator’s challenge to the
trial court’s rulings on the demurrer, discovery motion, and summary judgment with
these standards in mind.
III
The function of a demurrer is to test the sufficiency of the complaint by raising
questions of law. We give the complaint a reasonable interpretation and read it as a
whole with all parts considered in their context. A general demurrer admits the truth of
all material factual allegations. We are not bound by the construction placed by the trial
court on the pleadings; instead, we make our own independent judgment. (Herman v.
Los Angeles County Metropolitan Transportation Authority (1999) 71 Cal.App.4th 819,
824.)
Where the trial court sustains the demurrer without leave to amend, we must
decide whether there is a reasonable probability the plaintiff can cure the defect with an
amendment. If we find that an amendment could cure the defect, we must find the court
abused its discretion and reverse. If not, the court has not abused its discretion. The
plaintiff bears the burden of proving an amendment would cure the defect. (Gomes v.
Countrywide Home Loans, Inc. (2011) 192 Cal.App.4th 1149, 1153.)

7

Bator filed a cross-complaint, an amended cross-complaint, and a second amended
cross-complaint. The-trial court ultimately granted Nilsson’s demurrer to the second
amended cross-complaint.
On appeal, Bator presents a rambling list of “Errors” he accuses the trial court of
committing in ruling on Nilsson’s demurrer.1 However, Bator fails to explain what
causes of action he adequately pled in his cross-complaint. Nor does he set forth how the
cross-complaint could be amended to cure the defects found by the trial court.
As noted, it is Bator’s burden to affirmatively show the court erred. To
demonstrate such error, Bator must provide meaningful legal analysis supported by
citations to both the facts in the record and citations to authority to support his claims.
Mere suggestions of error, without supporting argument or authority other than general
abstract principles fail to present us grounds for review on appeal. (Multani v. Within &
Neal (2013) 215 Cal.App.4th 1428, 1457.) Accordingly, given the absence of either
citations to the record or legal authority to support Bator’s claims regarding the demurrer,
the claim is forfeited.
IV
During the course of litigation, discovery requests and responses flew fast and
furious between the parties. After several attempts to compel Bator to respond to

l

Bator states: “Judge Dixon has declined to admit all the facts pleaded by the
defendant/cross plaintiff. Defendant/cross plaintiffs believe Judge Dixon has not even
considered them in any light.” “Judge Dixon is putting form above substance in the
granting demurrer of defendant/cross plaintiff cross complaint.” “There was no basis for
Judge Dixon to sustain the demurrer, other than a minor correction in form if my
deficiencies actually exist.” “Judge Dixon erred in seeking more detail than is necessary
to overrule the demurrer.” “Judge Dixon in her refusal to overrule the demurrer is
perpetuating and permitting Nilsson’s fraud.” “Judge Dixon seems to be aware of all of
the counts alleged against Nilsson et al and fails in her judicial responsibility in sustain
the demurrer.”
8

discovery, the trial court issued a detailed order sanctioning Bator for a variety of
discovery abuses.
We review a trial court’s order imposing a discovery sanction for an abuse of
discretion, resolving any evidentiary conflicts most favorably to the trial court’s ruling.
We reverse only if the trial court’s action was arbitrary, capricious, or whimsical. Bator
bears the burden to demonstrate the trial court erred and where the evidence is conflicting
we shall not disturb the trial court’s finding. {EUis v. Toshiba America Information
Systems, Inc. (2013) 218 Cal.App.4th 853, 878.)
The record before us reveals an on-going failure of Bator to respond to Nilsson’s
discoveiy requests. At several junctures, the trial court ordered compliance to no avail.
On appeal, Bator provides no coherent argument challenging the trial court’s order. We
find no abuse of discretion.
V
The trial court granted Nilsson’s motion for summary judgment, including a
judgment ofjudicial foreclosure of Nilsson’s security interest in the real and personal
property of Bator’s mining operation. A motion for summary judgment must be granted
if the submitted papers show there is no triable issue of fact and that the moving party is
entitled to judgment as a matter of law. The moving party initially bears the burden of
making a showing of the nonexistence of any genuine issue of fact. Once the moving
party has met its burden, the burden shifts to the opposing party to show the existence of
a triable issue of material fact. (Code Civ. Proc., § 437c, subds. (c), (p)(2); Aguilar v.
Atlantic Richfield Co. (2001) 25 Cal.4th 826, 845.)
On appeal, Bator states: “Multiple actions by Judge Dixon are unlawful and
without merit. The court accepts the single statement by Nilsson et al, that they/he has
fulfilled his obligations under the contract. Inis is a lie. A factual dispute warrants a
jury trial Mr. Nilsson breaches wairam a counter suit for breach of contract. .Nilsson

Q ft
rY S'

breaches pre-date M. Bator’s arrest and Mr. Bator can substantiate Nilsson et. al
breaches; Unfortunately, Judge Dixon refused to allow appellant the ability to present
evidence warranting Bator counter suit against Nilsson et al.” Again, given Bator’s
failure to either cite to the record or legal authority to challenge the trial court’s grant of
summary judgment, the.claim is forfeited.
DISPOSITION
The judgment is affirmed. Nilsson shall recover costs on appeal. (Cal. Rules of
Court, rule 8.278(a)(1) & (2).)

RAYE, P. J

We concur:

St

BUT

MURRAY, J.

(

' 10

8^

Additional material
from this filing is
available in the
Clerk's Office.

